No. ________

IN THE

WI-LAN, INC.; WI-LAN LABS, INC.;
AND WI-LAN USA, INC.,

v.

Petitioners,

DREW HIRSHFELD, ACTING UNDER SECRETARY OF
COMMERCE FOR INTELLECTUAL PROPERTY AND
DIRECTOR OF THE UNITED STATES PATENT AND
TRADEMARK OFFICE,
Respondent.
ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT
PETITION FOR A WRIT OF CERTIORARI
Ruthanne M. Deutsch
DEUTSCH HUNT PLLC
300 New Jersey Ave.
N.W. Suite 900
Washington, DC 20001
(202) 868-6915

Douglas R. Wilson
Counsel of Record
Michelle E. Armond
Forrest M. McClellen
ARMOND WILSON LLP
895 Dove St. Suite 300
Newport Beach, CA 92660
(949) 932-0778

doug.wilson@armondwilson.com

Counsel for Petitioners

QUESTIONS PRESENTED
1.
Whether, for purposes of the Appointments
Clause, U.S. Const. Art. II, § 2, Cl. 2, administrative
patent judges of the U.S. Patent and Trademark Office
are principal officers who must be appointed by the
President with the Senate’s advice and consent, or
“inferior Officers” whose appointment Congress has
permissibly vested in a department head.
2.
Whether, if administrative patent judges
are principal officers, the court of appeals properly
cured any Appointments Clause defect in the current
statutory scheme prospectively by severing the
application of 5 U.S.C. § 7513(a) to those judges.

(i)

ii
PARTIES TO THE PROCEEDINGS
Wi-LAN, Inc., Wi-LAN Labs, Inc., and Wi-LAN
USA, Inc. were the patent owners in the proceeding
before the Patent Trial and Appeal Board and
appellants in the court of appeals.
LG Electronics, Inc., LG Electronics U.S.A., Inc.,
and LG Electronics Mobilecomm U.S.A., Inc. were the
petitioners in the proceeding before the Patent Trial
and Appeal Board and the appellees in the court of
appeals but withdrew from the appeal due to
settlement before filing a brief.
After LG Electronics, Inc., LG Electronics U.S.A.,
Inc., and LG Electronics Mobilecomm U.S.A., Inc.
informed the court of appeals that they would not
participate in the appeal, the Under Secretary of
Commerce for Intellectual Property and Director of
the United States Patent and Trademark Office
(“Director”) intervened to defend the agency ruling in
the appeal.
The court of appeals subsequently
amended the caption to list Andrei Iancu, then
Director, as intervenor. Mr. Iancu subsequently
resigned his position.
Due to Mr. Iancu’s resignation, Drew Hirshfeld is
the current Acting Under Secretary of Commerce for
Intellectual Property and Director of the United States
Patent and Trademark Office.

iii
CORPORATE DISCLOSURE STATEMENT
Pursuant to this Court’s Rule 29.6, petitioners
Wi-LAN, Inc., Wi-LAN Labs, Inc., and Wi-LAN USA,
Inc., identify the following parent corporations or
publicly held companies that own 10% or more of
petitioners’ stock: Quarterhill Inc.

iv
RELATED PROCEEDINGS
There are no proceedings that are directly related
to this case within the meaning of Rule 14.1(b)(iii) and
that remain pending at this time.

v
TABLE OF CONTENTS
QUESTIONS PRESENTED ........................................ i
PARTIES TO THE PROCEEDINGS .......................... ii
CORPORATE DISCLOSURE STATEMENT ........... iii
RELATED PROCEEDINGS ...................................... iv
TABLE OF AUTHORITIES ....................................... vi
OPINIONS BELOW .................................................... 1
JURISDICTION .......................................................... 2
CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED .................................... 2
STATEMENT OF THE CASE .................................... 3
I. The Arthrex Decision and this Court’s
Certiorari Grant ..................................................... 3
II. The Proceedings in this Matter ............................. 5
REASONS FOR GRANTING THE WRIT .................. 6
CONCLUSION .......................................................... 13
APPENDIX
APPENDIX A: Judgment of the United States
Court of Appeals for the Federal Circuit in Case
No. 19-2284 (Oct. 9, 2020) ......................................... 1a
APPENDIX B: Final Written Decision of the
Patent Trial and Appeal Board in Case No.
IPR2018-00705 (July 22, 2019) ................................. 3a
APPENDIX C: Relevant Constitutional
and Statutory Provisions ........................................ 64a

vi
TABLE OF AUTHORITIES
CASES:
Arthrex, Inc. v. Smith & Nephew, Inc.,
941 F.3d 1320 (Fed. Cir. 2019) ..................... passim
Bedgear, LLC v. Fredman Bros. Furniture Co.,
Inc.,
779 F. App’x 748 (Fed. Cir. 2019) .......................... 9
Biodelivery Scis. Int’l, Inc. v. Aquestive
Therapeutics, Inc.,
898 F.3d 1205 (Fed. Cir. 2018) ............................ 11
Curtis Publ’g Co. v. Butts,
388 U.S. 130 (1967) ................................................ 9
Edmond v. United States,
520 U.S. 651 (1997) ............................................ 6, 7
Freytag v. Comm’r,
501 U.S. 868 (1991) .......................................... 9, 10
Harper v. Va. Dep’t of Taxation,
509 U.S. 86 (1993) .................................................. 9
Hormel v. Helvering,
312 U.S. 552 (1941) .............................................. 10
PHH Corp. v. Consumer Fin. Prot. Bureau,
839 F.3d 1 (D.C. Cir. 2016) .................................. 10
Polaris Indus. Inc. v. Arctic Cat, Inc.,
724 F. App’x 948 (Fed. Cir. 2018) ........................ 11

vii
SAS Inst., Inc. v. Iancu,
138 S. Ct. 1348 (2018) .......................................... 11
Trading Techs. Int’l, Inc. v. IBG LLC,
771 F. App’x 493 (Fed. Cir. 2019) .......................... 9
Ward v. Village of Monroeville,
409 U.S. 57 (1972) .................................................. 8
Withrow v. Larkin,
421 U.S. 35 (1975) .................................................. 8
STATUTES AND REGULATIONS:
5 U.S.C. § 7513 ....................................................... 3, 7
28 U.S.C. § 1254 ......................................................... 2
35 U.S.C. § 141 ........................................................... 7
35 U.S.C. § 311 ........................................................... 5
35 U.S.C. § 319 ........................................................... 7
U.S. CONST. Art. II, § 2, Cl. 2 ................................ 2, 10
OTHER AUTHORITIES:
General Order in Cases Remanded Under
Arthrex, Inc. v. Smith & Nephew, Inc., 941
F.3d 1320 (Fed. Cir. 2019) (P.T.A.B. May 1,
2020) ....................................................................... 4

PETITION FOR A WRIT OF CERTIORARI
Petitioners Wi-LAN, Inc., Wi-LAN Labs, Inc., and
Wi-LAN
USA,
Inc.
(collectively,
“Wi-LAN”)
respectfully request a writ of certiorari to review the
judgment of the United States Court of Appeals for the
Federal Circuit. On October 13, 2020, this Court
granted the petitions for certiorari in Nos. 19-1434,
19-1452, and 19-1458, all limited to Questions 1 and 2
(identical to the questions presented by this petition)
as set forth in the July 22, 2020 Memorandum for the
United States. As explained further below, Wi-LAN
respectfully submits that this petition should be held
pending the disposition of those writs of certiorari
(Nos. 19-1434, 19-1452, and 19-1458) that have been
granted to review the Federal Circuit’s decision in
Arthrex, Inc. v. Smith & Nephew, Inc., 941 F.3d 1320
(Fed. Cir. 2019), and then resolved accordingly as
dictated by the outcome of those cases.
OPINIONS BELOW
On October 9, 2020, the United States Court of
Appeals for the Federal Circuit issued its judgment
under Fed. Cir. R. 36, affirming without opinion the
final written decision of the Patent Trial and Appeal
Board (“Board”). The Rule 36 judgment is reprinted in
the Appendix to the Petition (“App.”) at App. 1a-2a and
was reported at Wi-LAN Inc. v. Iancu, 825 F. App’x 922
(Fed. Cir. Oct. 9, 2020).
The final written decision of the Board is
reprinted at App. 3a-63a and is available at LG Elecs.,
Inc. v. Wi-LAN Inc., IPR2018-00705, 2019 WL
3294987 (P.T.A.B. July 22, 2019).
(1)

2
JURISDICTION
The judgment of the Federal Circuit was entered
on October 9, 2020. App. 2a. No petition for rehearing
was filed. On March 19, 2020, this Court extended the
time within which to file any petition for a writ of
certiorari due on or after that date to 150 days from
the date of the lower court judgment, order denying
discretionary review, or order denying a timely
petition for rehearing. Thus, the deadline for filing this
petition for a writ of certiorari is March 8, 2021.
Petitioner invokes the jurisdiction of this Court under
28 U.S.C. § 1254(1).
CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED
The Appointments Clause, U.S. Const. Art. II,
§ 2, Cl. 2, provides:
[The President] shall nominate, and by and
with the Advice and Consent of the Senate,
shall appoint Ambassadors, other public
Ministers and Consuls, Judges of the
Supreme Court, and all other Officers of the
United States, whose Appointments are not
herein otherwise provided for, and which
shall be established by Law: but the Congress
may by Law vest the Appointment of such
inferior Officers, as they think proper, in the
President alone, in the Courts of Law, or in
the Heads of Departments.

3
STATEMENT OF THE CASE
If this Court affirms the Federal Circuit’s holding
in Arthrex that administrative patent judges are
principal officers but concludes that the Federal
Circuit’s remedy of severing the application of 5 U.S.C.
§ 7513(a) to those judges is improper or does not cure
the Appointments Clause defect, then the Board’s final
written decision at issue here, finding that certain
claims of a patent owned by Wi-LAN are unpatentable,
should be vacated. Because this Court’s disposition of
the granted petitions in the Arthrex cases will directly
address the questions presented here, Wi-LAN
respectfully submits that the instant petition should
be held pending this Court’s disposition of the Arthrex
cases and then resolved accordingly.
I.

The Arthrex Decision and this Court’s
Certiorari Grant

1.
The Board consists of Administrative Patent
Judges (“APJs”) that possess significant decisionmaking authority to determine the validity of patents
challenged before the Board. APJs are appointed by
the Secretary of Commerce in consultation with the
Director of the United States Patent and Trademark
Office. They are not appointed by the President with
the advice and consent of the Senate. In Arthrex, the
Federal Circuit held that APJs are principal officers
appointed in violation of the Appointments Clause.
To remedy the constitutional defect it identified,
the Federal Circuit, after evaluating various
alternatives, concluded that “the narrowest possible
modification to the scheme Congress created” was to
“sever the application of Title 5’s removal restrictions
to APJs.” 941 F.3d at 1337. Because “the final written

4
decision on appeal issued while there was an
Appointments Clause violation,” the Federal Circuit
vacated and remanded the Board’s decision. Id. at
1325.
On October 13, 2020, this Court granted the
petitions for certiorari in Nos. 19-1434, 19-1452, and
19-1458, all limited to Questions 1 and 2 as set forth
in the July 22, 2020 Memorandum for the United
States. The specific questions granted are identical to
those presented in this petition.
As the number of remands based on Arthrex
mounted, the Board issued a general order staying all
Federal Circuit remands based on Arthrex pending the
expected filing of petitions for certiorari before this
Court. General Order in Cases Remanded Under
Arthrex, Inc. v. Smith & Nephew, Inc., 941 F.3d 1320
(Fed. Cir. 2019), at 1-2 (P.T.A.B. May 1, 2020). The
United States and the Director also filed petitions for
certiorari regarding the numerous Federal Circuit
remands based on Arthrex, which are presumably
being held by this Court. E.g., Petition for Certiorari,
No. 20-74, United States v. Image Proc. Techs. LLC
(July 23, 2020).
2.
Briefing and oral argument have now been
completed in Arthrex and the consolidated cases. This
Court will soon resolve whether the APJs are principal
officers and therefore have been unconstitutionally
appointed. If this Court affirms that ruling of the
Federal Circuit on the first question, this Court will
then need to answer whether the Federal Circuit’s
severance remedy was proper and if not, address the
appropriate remedy or remand for the Federal Circuit
to address it in view of this Court’s guidance. Because

5
the questions presented are identical, resolution of
this petition hinges on resolution of the Arthrex case.
II.

The Proceedings in this Matter

1. U.S. Patent No. 9,226,320 (“the ’320 Patent”),
entitled “Pre-Allocated Random Access Identifiers,” is
directed to pre-allocating codes to wireless devices for
requesting resources from a base station over a
random access channel. Wi-LAN filed a patent
infringement action in federal district court against
LG Electronics, Inc., LG Electronics U.S.A., Inc., and
LG Electronics Mobilecomm U.S.A., Inc.’s (collectively,
“LG”) for infringement of the ’320 Patent as well as
three other patents. Wi-LAN Inc. v. LG Elecs., Inc., No.
3:17-cv-00358 (S.D. Cal. July 10, 2018).
2. LG responded to Wi-LAN’s infringement suit
by seeking inter partes review (“IPR”) of the ’320
Patent, as well as other asserted patents, under the
Leahy-Smith America Invents Act (“AIA”), 35 U.S.C.
§ 311, arguing various claims of the ’320 Patent would
have been obvious over a combination of prior art
references. After LG filed its petitions for IPR, it filed
a motion to stay the district court litigation, which the
district court granted. Wi-LAN, Inc. v. LG Elecs., Inc.,
No. 3:17-cv-00358 (S.D. Cal. May 22, 2018). The
district court later lifted the stay and granted a motion
to dismiss for lack of subject matter jurisdiction. WiLAN, Inc. v. LG Elecs., Inc., No. 3:17-cv-00358 (S.D.
Cal. July 10, 2018). Wi-LAN then filed a second
infringement suit against LG asserting the ’320
Patent as well as three other patents. Wi-LAN Inc. v.
LG Elecs., Inc., No. 3:18-cv-01577 (S.D. Cal. Jan. 9,
2020). The Board denied institution on four of LG’s six
IPR petitions. Wi-LAN Inc. v. LG Elecs., Inc., No. 3:18-

6
cv-01577, 2018 WL 9516050, at *1 (S.D. Cal. Dec. 4,
2018). LG again sought a stay of the district court
proceeding, but the district court denied the motion.
Id. at *5. The parties subsequently settled their
disputes and dismissed the district court case. Wi-LAN
Inc. v. LG Elecs., Inc., No. 3:18-cv-01577 (S.D. Cal.
Jan. 9, 2020).
3. The Board issued a final written decision
holding that the challenged claims of the ’320 Patent
were unpatentable. App. 3a-63a. Wi-LAN appealed
that ruling. The Federal Circuit affirmed under Rule
36 of its local rules, without a written decision. App.
2a.
REASONS FOR GRANTING THE WRIT
If this Court affirms the Federal Circuit’s
determination that the appointment of APJs is
unconstitutional, then the ruling rescinding Wi-LAN’s
previously granted property right in its ’320 Patent by
holding certain claims invalid would have been made
by unconstitutionally-appointed APJs. If this Court
declines to affirm the remedy selected by the Federal
Circuit and selects a different remedy, or remands for
selection of a different remedy, Wi-LAN should be
entitled to that relief. Given the Court’s grant of
certiorari to review both of these issues, this petition
should be held pending the resolution of the questions
presented in Arthrex, Inc. v. Smith & Nephew, Inc.,
No. 19-1458; Smith & Nephew, Inc. v. Arthrex, Inc.,
No. 19-1452; and United States v. Arthrex, Inc., No.
19-1434, and then disposed of accordingly.
1. The Federal Circuit correctly concluded that
the appointment of APJs violates the Appointments
Clause. Under Edmond v. United States, 520 U.S. 651

7
(1997), “‘inferior officers’ are officers whose work is
directed and supervised at some level by others who
were appointed by Presidential nomination with the
advice and consent of the Senate.” Id. at 663. But
under the AIA, APJ decisions cannot be reviewed by
the Director, or any other officer, and appeals lie only
to the Federal Circuit. 35 U.S.C. § 319 (citing 35 U.S.C.
§ 141). APJs are principal officers under Edmond.
Additionally, APJs are protected from removal by
strict standards. See Br. for Arthrex, Inc. at 19-39,
Arthrex, Inc., Nos. 19-1434, 19-1452, 19-1458 (Dec. 23,
2020). The Federal Circuit correctly determined that
removal authority weighed in favor of viewing APJs as
principal officers because “both the Secretary of
Commerce and the Director [of the Patent and
Trademark Office] lack unfettered removal authority.”
Arthrex, 941 F.3d at 1332. Instead of being removable
“without cause,” “APJs may be removed ‘only for such
cause as will promote the efficiency of the service.’” Id.
at 1333 (citing 5 U.S.C. § 7513(a)). Moreover, the
Director’s “authority to assign certain APJs to certain
panels” is insufficient because that “is not the same as
the authority to remove an APJ from judicial service
without cause.” Id. at 1332.
The government’s response to these points is that
the Director may “promulgate regulations” and “issue
binding policy directives,” and “has additional
prerogatives regarding the conduct of individual
proceedings.” Br. for the U.S. at 14-15, Arthrex Inc.,
Nos. 19-1434, 19-1452, 19-1458 (Nov. 25, 2020). But
the government’s response ignores that “Congress
expressly divided the delegation of rulemaking and
adjudicatory powers between the Director and the
Board.” Br. for Arthrex, Inc. at 40, Arthrex, Inc., Nos.

8
19-1434, 19-1452, 19-1458. The structure of the AIA
“prohibits the Director from using his general
rulemaking or policymaking authority to direct the
Board how to decide specific cases.” Id.
2. This Court should affirm the Federal
Circuit’s determination that the appointment of APJs
is unconstitutional. If it does so, this Court will also
need to consider the adequacy of the Federal Circuit’s
purported remedy—specifically, severance of APJs’
tenure protections.
It is well-established that administrative
adjudications must afford parties a “fair trial in a fair
tribunal.” Withrow v. Larkin, 421 U.S. 35, 46 (1975)
(citation omitted). Decision makers that are “neutral
and detached” are a central requirement of that
objective. Ward v. Village of Monroeville, 409 U.S. 57,
62 (1972).
Congress clearly intended APJs to have tenure
protections which are necessary to ensure fair
tribunals for addressing patent validity. Br. for
Arthrex, Inc. at 47-56, Arthrex, Inc., Nos. 19-1434,
19-1452, 19-1458. Eliminating those protections
promotes neither congressional intent nor the public
perception of fair tribunals.
Without tenure protections, the independence
and impartiality of APJs may well be undermined, as
APJs may succumb to political pressure or other
incentives. Accordingly, should this Court confirm the
Appointments Clause violation, the Federal Circuit’s
proposed fix should be vacated, and the best path
forward is to have Congress address the remedy.
3. Wi-LAN was and remains entitled to have
the validity of its patent, a private property interest,

9
adjudicated by a constitutionally-sound panel. At the
very least, if this Court affirms the Federal Circuit’s
constitutionality determination and declines to affirm
the remedy selected by the Federal Circuit, this case,
like other currently pending petitions, should be
remanded back to the Federal Circuit for appropriate
treatment. See Harper v. Va. Dep’t of Taxation, 509
U.S. 86, 97 (1993) (“When this Court applies a rule of
federal law to the parties before it, that rule is the
controlling interpretation of federal law and must be
given full retroactive effect in all cases still open on
direct review[.]”).
4. No principle of forfeiture or waiver precludes
holding this petition pending this Court’s disposition
of the Arthrex cases and then disposing of it
accordingly. Indeed, “the mere failure to interpose [a
constitutional] defense prior to the announcement of a
decision which might support it cannot prevent a
litigant from later invoking such a ground.” Curtis
Publ’g Co. v. Butts, 388 U.S. 130, 142-43 (1967). This
is especially true where, as here, the court below has
previously rejected the defense at issue. Before
Arthrex, the Federal Circuit had rejected the very
same Appointments Clause challenge it ultimately
accepted in Arthrex. See Trading Techs. Int’l, Inc. v.
IBG LLC, 771 F. App’x 493 (Fed. Cir. 2019); Bedgear,
LLC v. Fredman Bros. Furniture Co., Inc., 779 F. App’x
748 (Fed. Cir. 2019), reh’g granted, judgment vacated,
803 F. App’x 407 (Fed. Cir. 2020).
Appointments Clause challenges are particularly
appropriate for excusing forfeiture. See, e.g., Freytag v.
Comm’r, 501 U.S. 868, 879 (1991) (reviewing
Appointments Clause challenge over assertion of
waiver, noting “the strong interest of the federal

10
judiciary in maintaining the constitutional plan of
separation of powers” (citation omitted)); see also PHH
Corp. v. Consumer Fin. Prot. Bureau, 839 F.3d 1 (D.C.
Cir. 2016), rev’d en banc, 881 F.3d 75 (D.C. Cir. 2018)
(Kavanaugh, J.) (permitting an Appointments Clause
challenge despite claims of waiver). Even in Arthrex,
the Federal Circuit reached the Appointments Clause
issue despite arguments by appellees and the
government that Arthrex forfeited its Appointments
Clause challenge by not raising the issue before the
Board. 941 F.3d at 1327. Because it determined that
the Appointments Clause issue was “an issue of
exceptional importance,” the Federal Circuit
concluded it was appropriate to “decide the issue over
a challenge of waiver.” Id.
This Court has long practiced a flexible approach
favoring enforcement of constitutional limits over
strict adherence to forfeiture rules. As this Court
observed in Freytag, “‘in Lamar v. United States, 241
U.S. 103, 117-118 [(1916), this Court heard] the claim
that an intercircuit assignment . . . usurped the
presidential appointing power under Art. II,
§ 2, . . . despite the fact that it had not been raised in
the District Court or in the Court of Appeals or even
in this Court until the filing of a supplemental brief
upon a second request for review.” Freytag, 501 U.S. at
879 (quoting Glidden Co. v. Zdanok, 370 U.S. 530, 536
(1962)).
Additionally, this Court has traditionally
recognized that intervening precedent creates an
exception to waiver. In Hormel v. Helvering, this Court
held that an exception to the rule of waiver applies
where “there have been judicial interpretations of
existing law after decision below and pending

11
appeal—interpretations which if applied might have
materially altered the result.” 312 U.S. 552, 558-59
(1941). Plainly that exception should apply here,
where the Arthrex decision was issued during the
pendency of Wi-LAN’s appeal and especially where
this Court’s grant of certiorari on the question of
appropriate remedy could fundamentally alter the
effect of that constitutional violation on the
proceedings below.
Even the Federal Circuit has granted such
exceptions in some cases. For example, after this
Court’s statutory ruling in SAS Inst., Inc. v. Iancu, 138
S. Ct. 1348 (2018), the Federal Circuit excused parties’
failure to challenge the Board’s institution procedure
on less than all claims or grounds in the opening brief
on appeal, recognizing that “SAS represented a
significant change in law,” and that “‘any attempt to
argue against partial institution [prior to SAS] would
have been futile under the Board’s regulations and our
precedent.’” Biodelivery Scis. Int’l, Inc. v. Aquestive
Therapeutics, Inc., 898 F.3d 1205, 1209 (Fed. Cir.
2018) (quoting Polaris Indus. Inc. v. Arctic Cat, Inc.,
724 F. App’x 948, 950 (Fed. Cir. 2018)). The Federal
Circuit thus held that despite a party’s failure to raise
the partial institution issue even during briefing in the
appeal, “[i]t is clear that waiver does not apply.” Id.;
see also Polaris Indus., 724 F. App’x at 949 (“Precedent
holds that a party does not waive an argument that
arises from a significant change in law during the
pendency of an appeal.”).
Any assertion of the constitutional violations
covered in the questions presented would have been
effectively futile. Had Wi-LAN raised the Arthrex
issue in its opening brief on appeal, the Federal Circuit

12
would have simply vacated the Board’s decision and
remanded to the Board for another hearing. But the
only difference between that hearing and Wi-LAN’s
original hearing would have been a different panel of
APJs serving under a remedial regime invented by the
Federal Circuit that, under Wi-LAN’s view, does not
solve the constitutional problem. And jettisoning
removal protections only undermines the impartiality
and independence that Congress intended APJs, who
adjudicate the validity of valuable intellectual
property rights, to have.
In Wi-LAN’s view, a rehearing by a different set
of still-constitutionally infirm—and now less
independent—APJs would not have provided a
remedy to the constitutional violations, changed the
outcome, nor provided any benefit to Wi-LAN. Because
Wi-LAN like the petitioner in Arthrex, believes that
the Federal Circuit’s remedy was not an acceptable
solution to the Appointments Clause violation, seeking
a remand from the Federal Circuit would have simply
added delay and cost without improving the situation.
What’s more, even if Wi-LAN had sought and
obtained a remand from the Federal Circuit based on
Arthrex, Wi-LAN would be in exactly the same position
as it is now—with a pending petition for certiorari
awaiting the outcome of this Court’s ruling in the
Arthrex cases. Why? Because the government
petitioned for review of the Federal Circuit Arthrex
remands, and those cases are presumably being held
pending the resolution of Arthrex. E.g., Petition for
Certiorari, No. 20-74, United States v. Image Proc.
Techs. LLC (July 23, 2020).
What Wi-LAN seeks is simple: To have the
validity of its patent adjudicated by a properly

13
constituted panel should this Court confirm there is an
Appointments Clause violation but conclude that the
Federal Circuit erred in its choice of remedy.
CONCLUSION
The petition for a writ of certiorari should be
granted.
Respectfully submitted.
Ruthanne M. Deutsch
DEUTSCH HUNT PLLC

Douglas R. Wilson
Counsel of Record
Michelle E. Armond
Forrest M. McClellen
ARMOND WILSON LLP

Counsel for Petitioners
March 8, 2021

APPENDIX
APPENDIX A: Judgment of the United
States Court of Appeals for
the Federal Circuit in Case
No. 19-2284 (Oct. 9, 2020)............. 1a
APPENDIX B: Final Written Decision of
the Patent Trial and Appeal
Board in Case No. IPR201800705 (July 22, 2019) .................... 3a
APPENDIX C: Relevant Constitutional
and Statutory Provisions ............ 64a

1a
APPENDIX A
NOTE: This disposition is nonprecedential.
UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT
______________________
WI-LAN INC., WI-LAN LABS, INC., WI-LAN USA,
INC.,
Appellants
v.
ANDREI IANCU, UNDER SECRETARY OF
COMMERCE FOR INTELLECTUAL PROPERTY
AND DIRECTOR OF THE UNITED STATES
PATENT AND TRADEMARK OFFICE,
Intervenor
______________________
2019-2284
______________________
Appeal from the United States Patent and
Trademark Office, Patent Trial and Appeal Board in
No. IPR2018-00705.
______________________
JUDGMENT
______________________
DOUGLAS R. WILSON, Armond Wilson LLP,
Austin, TX, argued for appellants. Also represented
by MICHELLE ARMOND, Newport Beach, CA.

2a
BRIAN RACILLA, Office of the Solicitor, United
States Patent and Trademark Office, Alexandria, VA,
argued for intervenor. Also represented by THOMAS
W. KRAUSE, FARHEENA YASMEEN RASHEED,
MAI-TRANG DUC DANG.
______________________
THIS CAUSE having been heard and considered, it is
ORDERED and ADJUDGED:
PER CURIAM (PROST, Chief Judge,
WALLACH and STOLL, Circuit Judges).
AFFIRMED. See Fed. Cir. R. 36.
ENTERED BY ORDER OF THE COURT
October 9, 2020
Date

/s/ Peter R. Marksteiner
Peter R. Marsteiner
Clerk of the Court

3a
APPENDIX B
UNITED STATES PATENT
AND TRADEMARK OFFICE
BEFORE THE PATENT TRIAL
AND APPEAL BOARD

LG ELECTRONICS, INC., LG ELECTRONICS
U.S.A., INC., LG ELECTRONICS MOBILECOMM
U.S.A., INC.,
Petitioner,
v.
WI-LAN INC., WI-LAN USA, INC., WI-LAN LABS,
INC.,
Patent Owner.

Case IPR2018-00705
Patent 9,226,320 B1

Before JONI Y. CHANG, ANNETTE R. REIMERS,
and KAMRAN JIVANI, Administrative Patent
Judges.
CHANG, Administrative Patent Judge.
FINAL WRITTEN DECISION
Inter Partes Review
35 U.S.C. § 318(a) and 37 C.F.R. § 42.73

4a
I. INTRODUCTION
LG Electronics, Inc., LG Electronics U.S.A., Inc.,
and LG Electronics Mobilecomm U.S.A., Inc.
(collectively, “Petitioner”) filed a Petition requesting
an inter partes review of claims 1, 3, 4, 8−10, 12,
15−17, 20, 21, 25, 27, and 30 (“the challenged
claims”) of U.S. Patent No. 9,226,320 B1 (Ex. 1001,
“the ’320 patent”). Paper 2 (“Pet.”). Wi-LAN Inc., WiLAN USA, Inc., and Wi-LAN Labs, Inc. (collectively
“Patent Owner”) filed a Preliminary Response. Paper
8 (“Prelim. Resp.”). We determined that Petitioner
had established a reasonable likelihood that it would
prevail with respect to at least one claim, and we
instituted this inter partes review as to all of the
challenged claims of the ’320 patent and all the
grounds asserted by Petitioner. Paper 11 (“Dec.”).
After institution, Patent Owner filed a Response
(Paper 20, “PO Resp.”); Petitioner filed a Reply
(Paper 23); and Patent Owner filed a Sur-reply
(Paper 24). An oral hearing was held on May 6, 2019,
and the transcript of the oral hearing has been
entered into the record as Paper 35 (“Tr.”). In
addition, the parties have filed a copy of their district
court claim construction briefs (Exs. 1010, 2003,
2004, 2009−2012), as well as the District Court Claim
Construction Order (Ex. 2013).
For the reasons provided below, we conclude
that Petitioner has demonstrated by a preponderance
of the evidence that claims 1, 3, 4, 8−10, 12, 15−17,
20, 21, 25, 27, and 30 of the ’320 patent are
unpatentable.

5a
A. Related Matters
The parties indicate that the ’320 patent is involved
in Wi-LAN, Inc. v. LG Electronics, Inc., Case No.
3:17-cv-00358 (S.D. Cal). Pet. 1; Paper 4, 2. Petitioner
also filed another petition requesting an inter partes
review of the ’320 patent, which we denied. Pet. 1;
Case IPR2018-00704, Papers 2, 14.
B. The ’320 Patent
The ’320 patent, titled “Pre-Allocated Random Access
Identifiers,” describes “[s]ystems and methods of preallocating identifiers to wireless devices for use in
requesting resources over a random access channel.”
Ex. 1001, Abstract. Figure 1 of the ’320 patent is
reproduced below with Patent Owner’s annotations
and color highlighting (PO Resp. 2).

As shown in annotated Figure 1 of the ’320
patent above, each base station has a coverage area
and a random access channel. Id. at 3:18−22, 4:60–
62. The coverage area of serving base station 110a is
highlighted in blue, and the coverage area of target
base station 110b is highlighted in red. Serving base
station 110a is the base station that is currently

6a
serving mobile device 130a. Id. at 4:56−60. In the
situation where mobile device 130a transitions from
the coverage area of serving base station 110a to the
coverage area of a target base station 110b, the
communication link is handed over from serving base
station 110a to target base station 110b. Id. at
20:6−14. In a handover situation, the serving base
station or the target base station allocates a code to
the subscriber station for use during the handover.
Id. at 20:11−14.
C. Illustrative Claims
Of the challenged claims, claims 1, 12, 16, and
27 are independent. Claims 3, 4, and 8−10 depend
directly from claim 1; claim 15 depends directly from
claim 12; claims 17, 20, 21, and 25 depend directly or
indirectly from claim 16; and claim 30 depends
directly from claim 27. Claims 1 and 12 are
illustrative:
1. A method of operating a mobile station,
comprising:
receiving, from a serving base station, an
indication of a first reserved set of access
identifiers usable for non-contention access
over a first random access channel in a
coverage area of the serving base station;
obtaining, during a handover of the mobile
station from the serving base station to a
target base station, an indication of a noncontention reserved access identifier
identifying the mobile station in a coverage
area of the target base station;
transmitting the non-contention reserved
access identifier to the target base station

7a
over a second random access channel in the
coverage area of the target base station;
receiving, from the target base station, a
feedback message comprising a timing
adjustment; and
adjusting at least one operating parameter
of a transmission from the mobile station to
the target base station based at least in part
on the feedback message.
Ex. 1001, 21:8–25 (emphases added).
12. A method of operating a mobile station,
comprising:
receiving a message providing the mobile
station with an indication of a noncontention
reserved
access
identifier
available for use by the mobile station in a
coverage area of a target base station, the
non-contention reserved access identifier
belonging to a set of access identifiers
reserved for non-contention access to the
target base station;
receiving information about a shared
random access channel available in the
coverage area of the target base station;
transmitting the non-contention reserved
access identifier to the target base station
over the shared random access channel for
handover;
receiving from the target base station a
feedback message comprising a timing
adjustment; and

8a
adjusting uplink transmission timing of the
mobile station using the timing adjustment.
Id. at 22:1−18 (emphases added).
D. Prior Art Relied Upon
Petitioner relies upon the prior art references
listed below (Pet. 8).
Song US 2005/0117539 A1 June 2, 2005 (Ex.
1005)
Cleveland US 2007/0066226 A1 Mar. 22, 2007
(Ex. 1007)
802.16 IEEE Standard for Local and
Metropolitan Area Networks, Part 16: Air
Interface for Fixed Broadband Wireless Access
Systems (Institute of Electrical and Electronics
Engineers, Inc., Oct. 2004)
(Ex. 1008, “WiMAX”).
E. Asserted Grounds of Unpatentability
Petitioner asserts the following grounds of
unpatentability (Pet. 8):
Challenged
Claims
1, 3, 4, 8−10, 12,
and 15

Basis

References

§ 103(a)1 Song and WiMAX

Because the claims at issue appear to have an
effective filing date prior to March 16, 2013, the
effective date of the Leahy-Smith America Invents
Act, Pub. L. No. 112-29, 125 Stat. 284 (2011) (“AIA”)
amendments to 35 U.S.C. § 103, we apply the pre-AIA
version of 35 U.S.C. § 103 in this Decision.
1

9a
16, 17, 20, 21, 25,
27, and 30

§ 103(a) Song, WiMAX, and
Cleveland
II. ANALYSIS

A. Level of Ordinary Skill in the Art
In determining the level of ordinary skill in the
art, various factors may be considered, including the
“type of problems encountered in the art; prior art
solutions to those problems; rapidity with which
innovations are made; sophistication of the
technology; and educational level of active workers in
the field.” In re GPAC, Inc., 57 F.3d 1573, 1579 (Fed.
Cir. 1995) (quoting Custom Accessories, Inc. v.
Jeffrey–Allan Indus., Inc., 807 F.2d 955, 962 (Fed.
Cir. 1986)). Petitioner’s declarant, Robert Akl, Ph.D.,
asserts that a person of ordinary skill in the art
would have had “a bachelor’s degree in electrical
engineering, computer engineering, computer science
or similar field, and two to three years of experience
in wireless telecommunications, or equivalent.” Ex.
1003 ¶¶ 16−19; Pet. 4–5. Patent Owner does not
dispute this assertion. See generally PO Resp. 9.
Patent Owner’s declarant, Gary Lomp, Ph.D.,
proffers a similar assessment. Ex. 2006 ¶¶ 14−20. We
note that Petitioner’s assessment appears consistent
with the level of ordinary skill in the art at the time
of the invention as reflected in the prior art in the
instant proceeding. See Okajima v. Bourdeau, 261
F.3d 1350, 1355 (Fed. Cir. 2001). We agree with Dr.
Akl’s assessment, and apply that assessment in our
analysis in this Decision.

10a
B. Claim Construction
We apply the broadest reasonable interpretation
(“BRI”) standard in this proceeding because the
Petition was filed on October 11, 2017, prior to the
effective date of the rule change that replaced the
BRI standard. See Changes to the Claim
Construction Standard for Interpreting Claims in
Trial Proceedings Before the Patent Trial and Appeal
Board, 83 Fed. Reg. 51,340 (Oct. 11, 2018) (final rule)
(“This rule is effective on November 13, 2018 and
applies to all IPR, PGR and CBM petitions filed on or
after the effective date.”). Under the BRI standard,
claim terms in an unexpired patent are given their
broadest reasonable construction in light of the
specification of the patent in which they appear. 37
C.F.R. § 42.100(b) (2018). The terms are generally
given their ordinary and customary meaning, as
would have been understood by one of ordinary skill
in the art in the context of the Specification. In re
Translogic Tech., Inc., 504 F.3d 1249, 1257 (Fed. Cir.
2007). For this Final Written Decision, we find it
necessary to construe only the claim term identified
below. Nidec Motor Corp. v. Zhongshan Broad Ocean
Motor Co., 868 F.3d 1013, 1017 (Fed. Cir. 2017)
(citing Vivid Techs., Inc. v. Am. Sci. & Eng’g, Inc.,
200 F.3d 795, 803 (Fed. Cir. 1999)) (noting that only
those claim terms that are in controversy need to be
construed, and only to the extent necessary to resolve
the controversy).
“a non-contention reserved access identifier”
The term “non-contention reserved access
identifier” appears in each of the independent
challenged claims. For example, claim 1 recites:

11a
obtaining, during a handover of the mobile
station from the serving base station to a
target base station, an indication of a noncontention
reserved
access
identifier
identifying the mobile station in a coverage
area of the target base station.
Ex. 1001, 21:13−17 (emphases added). Claim 16
recites a similar limitation. Id. at 22:29−38. Claim 12
recites:
receiving a message providing the mobile
station with an indication of a noncontention
reserved
access
identifier
available for use by the mobile station in a
coverage area of a target base station, the
non-contention reserved access identifier
belonging to a set of access identifiers
reserved for non-contention access to the
target base station.
Id. at 22:2−8 (emphases added). Claim 27 recites a
similar limitation. Id. at 23:26−24:4.
In its Petition, Petitioner argues that the term
“non-contention” should be interpreted to include
“reduces the probability of collision or avoids
collision.” Pet. 5−8. As support, Petitioner notes that
the Specification of the ’320 patent discloses that
“[d]uring a handover condition, the target base
station allocates a non-contention initial ranging
opportunity using a pre-allocated [Code Division
Multiple Access] CDMA code.” Ex. 1001, 20:15−17.
The Specification also explains that “[t]he use of preallocated codes avoids collision probability associated
with random subscriber selected access codes.” Id. at
3:1−3.

12a
Petitioner also points out that Patent Owner
argued in a related district court litigation that “noncontention” does not require avoiding collisions, but
instead should be understood more broadly to include
reducing the probability of collisions. Pet. 7 (citing
Ex. 1010, 24−28). This is consistent with the
Specification, which states that the base station
“reduces the probability of random access channel
collisions . . . by pre-allocating one or more
identifiers.” Ex. 1001, Abstract, 1:41−46. For
purposes of the Institution Decision, we adopted
Petitioner’s construction. Dec. 9. After institution,
neither party disputes that construction for “noncontention” in this proceeding. PO Resp. 19; Reply
12−13.
Nevertheless, in its Response, Patent Owner
asserts that the entire term “non-contention reserved
access identifier” should be interpreted as a “reserved
code that [1] is not randomly selected by the mobile
station, [2] identifies a mobile station to a base
station, and [3] reduces the probability of collision on
a random access channel during handover.” PO Resp.
10−19. For the reasons stated below, we adopt only
the second and third parts, but not the first part, of
Patent Owner’s proposed claim construction.
In the instant proceeding, the parties do not
dispute the second and third parts of Patent Owner’s
claim construction. Notably, the parties do not
dispute that a “non-contention reserved access
identifier” “identifies a mobile station to a base
station.” PO Resp. 16−17; Reply 6−13. This
interpretation is consistent with the claims and
Specification. As Patent Owner notes (PO Resp.
16−17), claim 1 recites “a non-contention reserved

13a
access identifier identifying the mobile station in a
coverage area of the target base station.” Ex. 1001,
21:15−17. The Specification also discloses that a
mobile station “can notify the base station 110a by
transmitting an identifier on the random access
channel,” which the base station uses to identify the
mobile station. Id. at 5:12−16.
The parties also do not dispute that a “noncontention reserved access identifier” “reduces the
probability of collision on a random access channel
during handover.” PO Resp. 17−19; Ex. 2003, 28;
Reply 12−13. As Patent Owner notes (PO Resp.
17−18), this interpretation is supported by the
Specification disclosing that the base station “reduces
the probability of random access channel collisions . .
. by pre-allocating one or more identifiers” or “by preallocating one or more codes.” Ex. 1001, Abstract,
1:42−46. Moreover, it is consistent with the District
Court Claim Construction Order that rejected the
contention that “the claimed identifier must
completely avoid and eliminate any collisions.” Ex.
2013, 37, 38.
The parties’ main dispute centers on the first
part of Patent Owner’s claim construction—namely,
whether the term “non-contention reserved access
identifier” should be interpreted as a “reserved code
that is not randomly selected by the mobile station.”
PO Resp. 10−16; Reply 6−12; Sur-reply 8−10.
Notably, the claims do not recite the language a “code
that is not randomly selected by the mobile station.”
In the Institution Decision (Dec. 25, 26), we
rejected Patent Owner’s implicit construction that
interprets the term “non-contention reserved access
identifier” to exclude a randomly selected code

14a
(Prelim. Resp. 17). We declined to import that
negative limitation from the Specification into the
claim. We noted that the Federal Circuit “has
repeatedly cautioned against limiting the claimed
invention to preferred embodiments or specific
examples in the specification.” Williamson v. Citrix
Online, LLC, 792 F.3d 1339, 1346–47 (Fed. Cir.
2015). Significantly, “it is the claims, not the written
description, which define the scope of the patent
right.” Id. at 1346. This is consistent with the
District Court Claim Construction Order that also
rejected Patent Owner’s attempt to improperly
import the negative limitation from the Specification
into the claims. Ex. 2013, 38−40.
In its Response and Sur-reply, Patent Owner
advances several arguments. PO Resp. 10−16; Surreply 8−10. First, Patent Owner argues that the
Specification discloses that “the reserved codes are
not to be randomly selected,” citing to Dr. Lomp’s
testimony (Ex. 2006 ¶ 42) for support. PO Resp. 10
(quoting Ex. 1001, 12:52−54) (emphasis added by
Patent Owner).
However, the full sentence in which that
language appears recites: “[t]he code assignment
module 320 can presume . . . that the reserved codes
are not to be randomly selected for a random access
channel request . . . .” Ex. 1001, 12:50−56 (emphasis
added). As the district court noted in its Claim
Construction Order (Ex. 2013, 38), the Specification
uses permissive language “can presume,” and it does
not state that the reserved codes must not be
randomly selected. Ex. 1001, 12:50−56. Moreover, the
Specification makes clear that the language relied
upon by Patent Owner and Dr. Lomp is merely an

15a
example or a preferred embodiment. Id. at 2:53−55,
2:63−64, 12:47 (“In some instances”), 12:56 (“In
another embodiment”). Therefore, Patent Owner’s
argument that the Specification discloses “the
reserved codes are not to be randomly selected” is
misplaced. Consequently, we again decline to read
the negative limitation “code that is not randomly
selected” from a preferred embodiment into the
claims. See Williamson, 792 F.3d at 1346–47.
Second, Patent Owner argues that the
Specification distinguishes the claimed pre-allocated
codes from codes that are randomly selected by the
mobile station. PO Resp. 10−13; Tr. 21:16−22:3
(citing Ex. 1001, 14, 34−48). Patent Owner maintains
that pre-allocated codes are the claimed “noncontention reserved access identifiers.” PO Resp.
10−16; Sur-reply 2, 8. According to Patent Owner, the
random access channel message generator of the
subscriber station “selects the pre-allocated code
having the desired semantic,” and “[o]nly if the
claimed pre-allocated code does not exist . . . , does
‘the random access channel message generator 350
randomly select[] a code,’” citing Dr. Lomp’s
testimony (Ex. 2006 ¶ 45) for support. PO Resp. 12
(citing Ex. 1001, 14:48−52, 14:22−26); Tr. 21:16−22:3.
However, even assuming the cited “pre-allocated
codes” discussions in the Specification are directed to
the claimed “non-contention reserved access
identifiers” and “handover,” as Patent Owner
maintains, Patent Owner’s argument and Dr. Lomp’s
testimony are conclusory, not supported by the
Specification as a whole.
As Patent Owner concedes, the Specification
discloses that “[t]he random access channel message

16a
generator 350 examines the codes stored in the
storage device 340 to determine whether the
subscriber station has been pre-allocated one or more
codes for [handover messages].” PO Resp. 12 (quoting
Ex. 1001, 14:17−21) (bracketed matter added by
Patent Owner) (emphasis added). The subscriber
station is not limited to receiving only one preallocated code for each usage type. Ex. 1001,
14:29−41. Indeed, the configuration module of the
base station can “pre-allocate multiple codes with the
same usage type” to the subscriber station. Id. at
8:27−29 (emphasis added).
Patent Owner and Dr. Lomp narrowly focus on a
portion of the Specification, which discloses that
“random access channel message generator 350
selects the pre-allocated code having the desired
semantic,” assuming improperly that at least one of
the pre-allocated codes has the desired semantic. PO
Resp. 12; Ex. 2006 ¶ 45 (quoting Ex. 1001, 14:42−44)
(emphases added). Significantly, in the full
paragraph in which that language appears, the
Specification also discloses that “[i]f no pre-allocated
codes have the desired semantic” and that “[i]f there is
no pre-allocated code with no semantic attached, the
random access channel message generator 350
randomly selects a [pre-allocated] code just as in the
case where the subscriber station 300 has no preallocated codes.” Ex. 1001, 14:42−52 (emphases
added). The Specification makes clear that not every
pre-allocated code is assigned a semantic or the
desired semantic, and that the subscriber station
randomly selects a pre-allocated code when the preallocated codes with the desired usage type have

17a
semantics but none of the semantics is the desired
semantic. Ex. 1001, 14:44−52.
In view of the Specification, we do not agree
with Patent Owner’s argument that the Specification
distinguishes the claimed pre-allocated codes from
randomly selected codes. PO Resp. 10−16. In
addition, interpreting the claim term “non-contention
reserved access identifier” to exclude randomly
selected codes, as urged by Patent Owner, would
improperly exclude a preferred embodiment. It is well
established that “[a] claim construction that excludes
the preferred embodiment ‘is rarely, if ever, correct
and would require highly persuasive evidentiary
support.’” Adams Respiratory Therapeutics, Inc. v.
Perrigo Co., 616 F.3d 1283, 1290 (Fed. Cir. 2010)
(citing Vitronics Corp. v. Conceptronic Inc., 90 F.3d
1576, 1583−84 (Fed. Cir. 1996)).
Third, Patent Owner argues that the
Specification distinguishes prior art codes that are
randomly selected by the mobile station from the
claimed pre-allocated codes, citing Dr. Lomp’s
testimony for support (Ex. 2006 ¶ 43). PO Resp.
10−12 (citing Ex. 1001, 5:35−6:10). We disagree.
The Specification merely distinguishes non-preallocated codes from pre-allocated codes, explaining
that “wireless communication system 100 can
alleviate at least some of the latency by pre-allocating
one or more codes to each subscriber station.” Ex.
1001, 5:35−6:10 (emphasis added). According to the
Specification, the base station “reduces the
probability of random access channel collisions” (i.e.,
provides non-contention access) “by pre-allocating one
or more codes to select wireless devices.” Id. at
1:42−46 (emphasis added). As Patent Owner

18a
concedes, the claim term “non-contention reserved
access identifier” merely requires “a reduction in the
probability of collision on a random access channel
during handover,” not eliminating all collisions
completely. PO Resp. 17−19. Interpreting this term to
exclude randomly selected codes would allow Patent
Owner to import the limitation eliminating all
collisions completely into the claims.
More importantly, the Specification does not
prohibit randomly selected pre-allocated codes. As
discussed above, Patent Owner improperly assumes
that at least one pre-allocated code has the desired
semantic, and the subscriber station would select the
pre-allocated code with the desired semantic. PO
Resp. 12; Tr. 21:24−26. That assumption is contrary
to the Specification. Ex. 1001, 14:44−52. In fact, the
Specification makes clear that not every pre-allocated
code is assigned a semantic or the desired semantic,
and that the subscriber station randomly would
select a pre-allocated code when the pre-allocated
codes with the desired usage type have semantics
and none of the semantics is the desired semantic. Id.
Therefore, we decline to interpret the claimed
identifier to exclude randomly selected reserved
codes.
Upon consideration of the entire trial record, we
adopt the second and third parts, but not the first
part, of Patent Owner’s proposed claim construction.
For this Final Written Decision, we interpret the
claim term “non-contention reserved access
identifier” as a reserved code that identifies a mobile
station to a base station, and reduces the probability
of collision on a random access channel during
handover. To be clear, we do not construe this claim

19a
term to exclude randomly selected reserved codes,
consistent with the Claim Construction Order issued
by the district court in the related litigation. Ex.
2013, 40.
C. Principles of Law on Obviousness
A patent claim is unpatentable under 35 U.S.C.
§ 103(a) if the differences between the claimed
subject matter and the prior art are such that the
subject matter, as a whole, would have been obvious
at the time the invention was made to a person
having ordinary skill in the art to which said subject
matter pertains. KSR Int’l Co. v. Teleflex Inc., 550
U.S. 398, 406 (2007). The question of obviousness is
resolved on the basis of underlying factual
determinations including: (1) the scope and content of
the prior art; (2) any differences between the claimed
subject matter and the prior art; (3) the level of
ordinary skill in the art; and (4) when in evidence,
objective evidence of nonobviousness.2 Graham v.
John Deere Co., 383 U.S. 1, 17–18 (1966).
D. Obviousness based on Song
Petitioner asserts that claims 1, 3, 4, 8−10, 12,
and 15 are unpatentable under 35 U.S.C. § 103(a) as
obvious over Song in combination with WiMAX. Pet.
10–54. Petitioner also asserts that claims 16, 17, 20,
21, 25, 27, and 30 are unpatentable under § 103(a) as
obvious over Song in combination with WiMAX and
Cleveland. Id. at 55–83.

Neither party presents evidence or arguments
regarding objective evidence of nonobviousness in this
proceeding.
2

20a
Patent Owner opposes, arguing that neither
prior art combination discloses all of the limitations
of the challenged claims. PO Resp. 19–37.
For the reasons stated below, we determine that
Petitioner has demonstrated by a preponderance of
the evidence that the challenged claims are
unpatentable.
Song
Song describes a handover ranging system and
method for preventing a ranging code collision while
minimizing an access delay time in a communication
system using an Orthogonal Frequency Division
Multiplexing (“OFDM”) scheme and an Orthogonal
Frequency Division Multiple Access (“OFDMA”)
scheme, i.e., an OFDM/OFDMA communication
system. Ex. 1005 ¶ 102. In particular, Song describes
“a handover ranging procedure in an IEEE 802.16e
communication system” that utilizes “a handover
ranging code and a handover ranging slot for
performing a handover ranging without code
collisions.” Id. ¶¶ 100, 103. Song illustrates how
ranging codes are “classified into handover ranging
codes and ranging codes for the non-handover
ranging.” Id. ¶ 115. The ranging code collision
between the handover ranging and non-handover
ranging is prevented by distinguishing non-handover
ranging codes from handover ranging codes. Id.
WiMAX
WiMAX is an IEEE document that specifies the
interface for fixed broadband wireless access systems
according to various IEEE 802.16 standards. Ex.
1008, 37. WiMAX provides implementation details for
complying with the IEEE 802.16 standards, including

21a
those utilizing OFDM/OFDMA methods. Id. at
38−39.
Cleveland
Cleveland describes a wireless network in which
base stations communicate with a plurality of mobile
stations. Ex. 1007 ¶ 17. Cleveland discloses a mobile
station that includes a processor, antenna,
transceiver, and receiver. Id. ¶ 33.
Independent claims 1, 12, 16, and 27
A mobile station comprising a processor, receiver, and
transmitter
Each of independent claims 16 and 27 recites a
mobile station comprising a processor, receiver, and
transmitter. Ex. 1001, 22:28−49, 23:24−24:17. By
virtue of their dependence, claims 17, 20, 21, 25, and
30 also require these hardware components.
Petitioner relies upon Cleveland, in addition to
Song and WiMAX, to teach or suggest the claimed
hardware components. Pet. 55−83. Cleveland teaches
a mobile station configured to implement
communications in an OFDMA communication
network. Ex. 1007 ¶ 17. Figure 3 of Cleveland is
reproduced below with annotation added by
Petitioner (Pet. 59).

22a

As shown in annotated Figure 3 of Cleveland above,
mobile station 112 comprises main processor 340
(green), antenna 305 and antenna 307, radio
frequency (RF) transceiver 310 (red and blue),
transmit (TX) processing circuitry 315 (blue),
microphone 320, and receiver (RX) processing
circuitry 325 (red). Ex. 1007 ¶ 33. Cleveland discloses
that “[r]adio frequency (RF) transceiver 310 receives
from antennas 305 and 307 incoming RF signals
transmitted by one or more base stations of wireless
network 100.” Id. ¶ 34.

23a
Petitioner explains that Song and WiMAX
disclose wireless communication systems. Pet. 58; Ex.
1005, Abstract; Ex. 1008, 1. Song describes a
conventional IEEE 802.16e communication system
having a plurality of mobile subscriber stations. Ex.
1005 ¶ 43. Likewise, WiMAX discloses an IEEE
802.16 standard for wireless access systems and
communications between subscriber stations and
base stations. Ex. 1008, 1−2, 47−51. Cleveland
similarly describes a wireless network including
multiple mobile stations, which are capable of
operating in an OFDMA mode and communicating
with base stations. Ex. 1007 ¶ 17.
Petitioner also explains that, to the extent Song
and WiMAX do not explicitly provide details about
the hardware components that are part of the mobile
station, an ordinarily skilled artisan would have
understood that the mobile station of Song and
WiMAX includes a processor, transmitter, and
receiver, operable to perform 802.16 wireless
communication techniques described by Song and
WiMAX. Pet. 58−64.
Dr. Akl testifies that such an artisan would have
been motivated to implement the OFDMA wireless
communication techniques of Song and WiMAX with
a mobile station having a processor, transmitter, and
receiver, as taught by Cleveland, because it would
ensure that the mobile station contains the necessary
components to (1) receive signals and messages from
a base station (e.g., via a receiver), (2) transmit
signals and messages to a base station (e.g., via a
transmitter), and (3) execute routines and process
signals and messages received from and/or
transmitted to the base station (e.g., via a processor).

24a
Ex. 1003 ¶¶ 188−194. We credit Dr. Akl’s unrebutted
testimony (id.) as it is consistent with the prior art of
record. See, e.g., Ex. 1005 ¶¶ 46−61, 82, 111−128; Ex.
1007 ¶¶ 33−38, Fig. 3; Ex. 1008, 37−39.
Based on the evidence in this entire trial record,
we determine that Petitioner has demonstrated
sufficiently that Song, in combination with WiMAX
and Cleveland, teaches or suggests a mobile station
comprising a processor, receiver, and transmitter, as
required by claims 16, 17, 20, 21, 25, 27, and 30.
Patent Owner does not proffer separate, specific
arguments as to Petitioner’s contentions regarding
these hardware limitations. See generally PO Resp.
First reserved set of access identifiers
Claim 1 recites “receiving, from a serving base
station, an indication of a first reserved set of access
identifiers usable for non-contention access over a
first random access channel in a coverage area of the
serving base station” (the “receiving first set of
identifiers” limitation). Ex. 1001, 21:8−12. Claim 16
similarly recites this limitation. Id. at 22:29−33.
Petitioner asserts that Song, in combination
with WiMAX, teaches or suggests the “receiving first
set of identifiers” limitation recited in claim 1, and
that Song, in combination with WiMAX and
Cleveland, teaches or suggests the “receiver operable
to receive” a first set of identifiers, as recited in claim
16. Pet. 20−27, 64−67 (citing Ex. 1003 ¶¶ 67−82). In
particular, Petitioner argues that Song’s initial
ranging codes teach “a first reserved set of access
identifiers,” as recited in claims 1 and 16. Id. Patent
Owner does not proffer separate, specific arguments
as to Petitioner’s contentions regarding these

25a
limitations recited in claims 1 and 16. See generally
PO Resp. For the reasons stated below, we are
persuaded by Petitioner’s showing.
As Petitioner points out (Pet. 20, 21), Song’s
“initial ranging is performed to synchronize the base
station with the [subscriber station].” Ex. 1005 ¶ 33.
During the initial ranging, Song’s subscriber station
“receives the [Downlink-MAP] DL-MAP message and
the [Uplink-MAP/Uplink Channel Descript] UPMAP/ UCD message in order to synchronize with the
base station.” Id. Song discloses that “[t]he UCD
message includes information of ranging codes” and
“[u]pon receiving UL-MAP message from the base
station 700, the [mobile subscriber station] MSS 750
can recognize the ranging code used for the initial
ranging.” Id. ¶¶ 48−50. Dr. Akl testifies that an
ordinarily skilled artisan would have recognized that
Song’s mobile station utilizes the ranging code as an
access identifier in the initial ranging procedure, and
the base station identifies the mobile station using
the ranging code. Ex. 1003 ¶¶ 69−71. We credit Dr.
Akl’s unrebutted testimony (id.) as it is consistent
with Song. Ex. 1005 ¶¶ 33, 48−50, Fig. 7.
Figure 7 of Song, as annotated by Petitioner
(Pet. 21), is reproduced below.

26a

Annotated Figure 7 of Song shows MSS 750
receiving from serving base station BS 700, the UCD
and UL-MAP messages (in steps 713 and 715) that
allow MSS 750 to determine the set of ranging codes
usable for initial ranging. Ex. 1005 ¶¶ 48−50.
Accordingly, we agree with Petitioner that the UCD
and UL-MAP messages are an “indication of first
reserved set of access identifiers,” as recited in claims
1 and 16. Pet. 21.
We also agree with Petitioner that Song’s initial
ranging codes are “usable for non-contention access.”
Id. at 22. Figure 10 of Song, as annotated by
Petitioner (id.), is reproduced below.

27a

Annotated Figure 10 of Song above illustrates
that Song’s base station reserves some of the ranging
codes for initial ranging 1010 (on the left, annotated
as “First Reserved Set of Access Identifiers”) and
some of the ranging codes for handover ranging 1020
(on the right). Ex. 1005 ¶ 115, Fig. 10. Song’s MSS
selects an initial ranging code from the set of initial
ranging codes 1010 and performs the initial ranging
for the initial access. Id. ¶ 117. Song describes “[b]y
allocating ranging codes for handover ranging (i.e.,
‘handover ranging codes’), the ranging code collision
between the handover ranging and non-handover
ranging is prevented.” Ex. 1005 ¶ 114 (emphasis
added). Accordingly, we agree with Petitioner that
Song’s initial ranging codes are usable for noncontention access because they reduce the probability
of collision. Pet. 23.
We also agree with Petitioner that Song’s initial
ranging codes are “usable for . . . access over a first
random access channel.” Id. (emphasis omitted).

28a
Figure 2 of Song, as annotated by Petitioner (id. at
24), is reproduced below.

As annotated Figure 2 of Song shows, Song
discloses an OFDMA frame that includes a random
access ranging channel and a number ranging slots.
In initial ranging, Song teaches that MSS 750
receives the USC and UL-MAP messages from which
MSS 750 can recognize a ranging channel. Ex. 1005
¶¶ 48−50. Song discloses that MSS 750 “randomly
selects one ranging slot from the ranging slots used
for the initial ranging, and then transmits the
selected ranging code to the base station 700 through
the selected ranging slot.” Id. ¶ 50.
Dr. Akl explains that an ordinarily skilled
artisan would have understood the ranging channel
in Song as a “random access channel” in that mobile
subscriber stations may randomly access the ranging
channel in the coverage area of the base station for
initial ranging. Ex. 1003 ¶ 78. In Dr. Akl’s view,
because Song teaches transmitting the randomly
selected initial ranging code over the randomly

29a
selected slot of the random access ranging channel in
the coverage area of the serving base station, Song
teaches that the identifiers in the “first reserved set
of access identifiers” are “usable for non-contention
access over a first random access channel.” Id. ¶¶
78−79. We credit Dr. Akl’s unrebutted testimony (id.)
as it is consistent with Song. Ex. 1005 ¶¶ 14−19,
48−50, Figs. 2, 7. Therefore, we are persuaded that
Petitioner has shown sufficiently that Song’s initial
ranging codes are “useable for . . . access over a first
random access channel,” as recited in claims 1 and
16.
In addition, Petitioner explains that an
ordinarily skilled artisan would have understood that
Song teaches transmitting the initial ranging code for
use “in a coverage area of the serving base station,”
as required by claims 1 and 16, because Song teaches
transmitting the initial ranging code in the coverage
area of the serving base station. Pet. 25−26 (citing
Ex. 1005, Fig. 6). Figure 6 of Song, annotated by
Petitioner (id. at 26), is reproduced below.

30a

Annotated Figure 6 of Song shows transmission
between MSS 630 and BS 610 within coverage area
600. Hence, we are persuaded that Petitioner has
shown that Song’s initial ranging codes are usable in
a coverage area of the serving base station, as
required by claims 1 and 16.
Based on the evidence in this entire trial record,
we determine that Petitioner has demonstrated
sufficiently that Song, in combination with WiMAX,
teaches or suggests “receiving, from a serving base
station, an indication of a first reserved set of access
identifiers usable for non-contention access over a
first random access channel in a coverage area of the
serving base station,” as recited in claims 1 and 16.
As noted above, Patent Owner does not proffer
separate, specific arguments as to Petitioner’s
contentions regarding these limitations recited in
claims 1 and 16. See generally PO Resp.

31a
Non-contention reserved access identifier
Each of independent claims 1, 12, 16, and 27
recites “a non-contention reserved access identifier.”
For example, claim 1 recites:
obtaining, during a handover of the mobile
station from the serving base station to a
target base station, an indication of a noncontention
reserved
access
identifier
identifying the mobile station in a coverage
area of the target base station.
Ex. 1001, 21:13−17 (emphases added). Claim 16
recites a similar limitation. Id. at 22:29−38. Claim 12
recites:
receiving a message providing the mobile
station with an indication of a noncontention
reserved
access
identifier
available for use by the mobile station in a
coverage area of a target base station, the
non-contention reserved access identifier
belonging to a set of access identifiers
reserved for non-contention access to the
target base station.
Id. at 22:2−8 (emphases added). Claim 27 recites a
similar limitation. Id. at 23:26−24:4. By virtue of
their dependency, claims 3, 4, 8−10, 15, 17, 20,
21, and 25 also require this limitation.
As discussed above in the claim construction
section, we adopt the second and third parts, but not
the first part, of Patent Owner’s proposed claim
construction. For this Final Written Decision, we
interpret the claim term “non-contention reserved
access identifier” as a reserved code that identifies a
mobile station to a base station, and reduces the

32a
probability of collision on a random access channel
during handover. We do not construe this claim term
to exclude randomly selected reserved codes.
Petitioner relies upon Song, in combination with
other asserted prior art references, to teach or
suggest the “non-contention reserved access
identifier” limitations. Pet. 10−13, 20−32, 46−47,
68−69, 76−79 (citing Ex. 1003 ¶¶ 83−95). Petitioner
asserts that Song’s reserved handover ranging codes
teaches or suggests the claimed “non-contention
reserved access identifier.” Id. We agree.
Petitioner points out that Song describes a
“handover ranging procedure in the IEEE 802.16e
system” in which “a mobile subscriber station (MSS)
that is serviced by a serving base station is handed
over to a target base station.” Ex. 1005 ¶¶ 83, 119
(emphasis added). In handover ranging, a UCD
message, which includes information of ranging
codes, and a UL-MAP message are sent from the base
station to the mobile station. Id. ¶ 121 (emphasis
added). Upon receiving the messages, “MSS 1150 can
recognize handover ranging codes used for a
handover ranging . . . a handover ranging channel,
and a handover ranging slot.” Id. ¶¶ 121−22.
As Petitioner explains, Song reserves some
ranging codes for handover ranging and reserves
other ranging codes for initial ranging. Id. ¶ 115, Fig.
10. Figure 10 of Song, annotated by Petitioner (Pet.
29), is reproduced below.

33a

As shown in annotated Figure 10 above, ranging
codes 1000 are classified into handover ranging codes
1020 (annotated by Petitioner in red, as a “Set of
Non-Contention Reserved Access Identifiers”) and
ranging codes for the non-handover ranging 1010
(labeled as “INITIAL RANGING CODES” on the
left). Ex. 1005 ¶ 115. According to Song, “[b]y
allocating ranging codes for the handover ranging
(i.e., ‘handover ranging codes’), the ranging code
collision between the handover ranging and nonhandover ranging is prevented.” Id. ¶ 114 (emphases
added); see also id. ¶ 103 (disclosing that “the present
invention proposes a handover ranging code and a
handover ranging slot for performing a handover
ranging without ranging code collisions” (emphasis
added)).
Petitioner points out that Song’s UCD and ULMAP messages obtained by the mobile station from
the target base station during handover provide an
indication of ranging codes usable for handover

34a
ranging. Pet. 29. Song discloses that “MSS 1150
randomly selects a handover ranging code from the
[received] handover ranging codes used for the
handover ranging, and transmits the selected
handover ranging code to the base station.” Ex. 1005
¶ 123.
Petitioner explains that the target base station
identifies the mobile station by using the handover
ranging code. Pet. 30, 31. Petitioner also explains
that a person of ordinary skill in the art would have
recognized that, for the target base station to
transmit back to the mobile station, the mobile
station must be identified by the target base station.
Id. Song discloses that when the mobile station
transmits a ranging code to the base station, the base
station identifies the ranging code and responds to
the mobile station with a RNG-RSP message that
includes the same ranging code “indicating the
successful receipt of the handover ranging code.” Ex.
1005 ¶¶ 123, 125.
As support, Dr. Akl testifies that an ordinarily
skilled artisan would have recognized that the
handover ranging codes in Song correspond to noncontention reserved access identifiers, and the
selected handover ranging code is the claimed “noncontention reserved access identifier.” Ex. 1003 ¶¶
85−90. Dr. Akl also testifies that such an artisan
would have recognized that the selected handover
ranging code is used to identify the mobile station in
the coverage area of the target base station. Id. ¶¶
91−94. We credit Dr. Akl’s testimony (id. ¶¶ 85−94)
as it is consistent with Song’s disclosure. See Ex.
1005 ¶¶ 111−125, Figs. 10, 11.

35a
Based on the evidence in this entire trial record,
we determine Petitioner has demonstrated
sufficiently that Song teaches a “non-contention
reserved access identifier,” as required by the
challenged claims.
Patent Owner opposes, advancing several
arguments. First, Patent Owner argues that Song
does not disclose the claimed “non-contention
reserved access identifier” because Song’s mobile
station “randomly selects a handover ranging code
from the handover ranging codes used for the
handover ranging.” PO Resp. 20−22 (emphasis
added).
However, Patent Owner’s argument improperly
rests on the first part of its proposed claim
construction that excludes randomly selected codes,
which we decline to adopt as it would improperly
import a negative limitation from a Specification
embodiment into the claims, as noted above in the
claim construction section. In fact, the ’320 patent
discloses a preferred embodiment in which the
subscriber station randomly selects a pre-allocated
code. Ex. 1005, 14:42−52. Therefore, Patent Owner’s
argument that Song does not disclose the claimed
“non-contention reserved access identifier” because
Song’s mobile station “randomly selects a handover
ranging code from the handover ranging codes used
for the handover ranging” is unavailing. Based on the
evidence before us, we find Petitioner has shown
sufficiently that Song teaches “a non-contention
reserved access identifier,” as recited in the
challenged claims.

36a
Second, Patent Owner argues that Song’s
handover ranging code does not identify the mobile
station because, like the prior art discussed in the
’320 patent, Song’s mobile device randomly selects its
own code from amongst a group of codes assigned to
all mobile stations. PO Resp. 22−25; Ex. 2006 ¶ 79.
Patent Owner contends that, in contrast, the claimed
“reserved code” identifies the mobile device to the
target base station because the code is assigned to a
specific mobile device. PO Resp. 22−25.
Patent Owner’s argument is misplaced,
however. As discussed above in the claim
construction section, the ’320 patent merely
distinguishes the prior art codes that are not preallocated from codes that are pre-allocated. And, in a
preferred embodiment, the ’320 patent discloses that
the subscriber station randomly selects a preallocated code. Ex. 1005, 14:42−52.
Significantly, in its claim construction briefs
filed in a related district court litigation, Patent
Owner concedes that the plain claim language of
independent claims 1, 12, 16, and 27 “merely state
that the ‘non-contention reserved access identifier [is
for] identifying the mobile station’ or ‘available for
use by the mobile station.’” Ex. 2003, 26; Ex. 2009, 28
(citing Ex. 1001, 21:15−16, 22:3−4, 22:36−37,
23:26−24:1) (bracketed matters added by Patent
Owner). Patent Owner admits that the claim term
“does not impose a requirement that the identifier or
code be ‘unique’ to the mobile station.” Ex. 2003, 26,
27; Ex. 2009, 28. Patent Owner also admits that such
“uniqueness” requirement would exclude a preferred
embodiment disclosed in the Specification. Ex. 2003,
26, 27. Patent Owner confirms that “[t]he

37a
specification states that ‘each subscriber station can
potentially be assigned a distinct set of codes,’ leaving
room for a ‘potential’ embodiment where the codes
are not distinct or unique.” Id. (quoting Ex. 1001,
3:3−5) (emphasis added by Patent Owner). Patent
Owner further admits that because the “uniqueness”
requirement is expressly claimed in dependent claims
15 and 30, which state that the identifier “uniquely
identifies the mobile station,” it “gives rise to a
presumption (under the doctrine of claim
differentiation) that the identifiers of the
independent claims need not be unique/distinct.” Ex.
2003, 26; Ex. 2009, 28 (emphasis added by Patent
Owner). Moreover, the district court in the related
litigation agreed with Patent Owner and rejected the
opposing contention that requires the claimed
identifier to distinct and uniquely identify the mobile
station to the target base station. Ex. 2013, 35−36.
More importantly, similar to the ’320 patent in
which the base station can “pre-allocate multiple
codes with the same usage type” (Ex. 1001, 8:27−29,
14:17−21), Song reserves ranging codes for particular
usage type to reduce the probability of collision (Ex.
1005 ¶¶ 111, 114, 115). Notably, Song’s “base station
assigns available ranging codes to the [mobile
subscriber station] according to the object or the type
of the rangings,” reserving a group of ranging codes
for handover. Id. ¶ 114. “By allocating ranging codes
for the handover ranging (i.e., ‘handover ranging
codes’), the ranging code collision between the
handover ranging and non-handover ranging is
prevented.” Id.
In addition, Song discloses a handover ranging
procedure in the IEEE 802.16e communication

38a
system. Id. ¶¶ 119−130, Fig. 11. Figure 11 of Song
describes an OFDM communication system based on
CDMA (“Code Division Multiple Access”) scheme.
Figure 11 of Song, annotated by Petitioner (Pet. 28),
is reproduced below.

Annotated Figure 11 of Song is a flow diagram
illustrating a handover ranging procedure in an
IEEE 802.16e communication system according to
Song’s invention. Ex. 1005 ¶ 100. Song describes that
“the MSS 1150 . . . transmits the selected handover
ranging code to the base station 1100 through the
selected handover ranging slot in Step 1117.” Id. ¶
123. “Upon receiving a random handover ranging

39a
code . . . from the MSS 1150, the base station 1100
transmits, to the MSS 1150, a ranging response
(RNG-RSP) message including the information
indicating the successful receipt of the handover
ranging code, for example an OFDMA symbol
number, a subchannel, and a ranging code, in Step
1121.” Id. ¶ 125, Fig. 11 (emphases added). Song
further explains that “upon receiving the RNG-RSP
message, the MSS 1150 adjusts the time and the
frequency offsets and transmission power using the
information included in the RNG-RSP message.” Id.
Base station 1100 additionally “transmits a UL-MAP
messages including the CDMA Allocation IE for the
MSS 1150 to MSS 1150 in Step 1123.” Id. ¶ 126. “The
CDMA Allocation IE includes information on an
uplink bandwidth at which the MSS 1150 will
transmit a ranging request (RNG-REQ) message.” Id.
Dr. Akl testifies that a person of ordinary skill
in the art would have understood that CDMA
ranging codes were utilized to identify the mobile
station in the communication between the mobile
station and the target base station. Ex. 1003 ¶¶
92−94. Dr. Akl also testifies that, in the transmission
from the mobile station to the target base station, the
CDMA code identifies the mobile station to the base
station, and, likewise, in the transmission from the
target base station to the mobile station, the CDMA
code identifies the mobile station. Ex. 1015 ¶¶ 30−33.
We credit Dr. Akl’s testimony (Ex. 1003 ¶¶ 92−94;
Ex. 1015 ¶¶ 30−32) as it is consistent with the prior
art of record. See, e.g., Ex. 1005 ¶¶ 111−130, Fig. 11;
Ex. 1017, 1:18−40 (“In the CDMA method, . . . [a]
separate spreading code is used over each connection
between a base station and a subscriber equipment,

40a
and the signals of the users can be distinguished from
one another in the receivers on the basis of the
spreading code of each connection.” (emphases added
by Dr. Akl)); Ex. 1018, 1:14−20 (“Code Division
Multiple Access (CDMA) protocol involves the use of
a unique code to distinguish each user’s data signal
from other users data signals.” (emphasis added by
Dr. Akl)).
For the foregoing reasons, Patent Owner’s
argument that Song’s handover ranging code does not
identify the mobile station is unavailing. Based on
the evidence before us, we find Petitioner has shown
sufficiently that Song teaches “a non-contention
reserved access identifier identifying the mobile
station in a coverage area of the target base station,”
as recited in the challenged claims.
Third, Patent Owner argues that “Song does not
reduce the probability of collision on a random access
channel during handover.” PO Resp. 25−26. As
support, Dr. Lomp testifies that “Song’s methodology
actually increases the probability of collision between
handover ranging codes” because it “reduces the
universe of potential codes used for handover
ranging” and “when a mobile device randomly selects
a handover ranging code, there are fewer possible
codes from which to select.” Ex. 2006 ¶ 85.
However, Dr. Akl testifies that reducing the
universe of potential codes used for handover ranging
does not necessarily increase the probability of
collision because “the number of mobile stations
performing a handover . . . is typically much smaller
such that the mobile stations performing handover
ranging are less likely to select the same code as
another mobile station.” Ex. 1015 ¶ 37.

41a
More importantly, Patent Owner already
concedes that “Song is describing access in which
there is no contention between a handover ranging
and non-handover ranging,” and “avoids a single type
of contention.” Prelim. Resp. 17−18 (emphases
added). Indeed, Song discloses that “[b]y allocating
ranging codes for the handover ranging (i.e.,
‘handover ranging codes’), the ranging code collision
between the handover ranging and non-handover
ranging is prevented.” Ex. 1005 ¶ 114, Fig. 10
(emphases added); see also id. ¶ 103 (disclosing that
“the present invention proposes a handover ranging
code and a handover ranging slot for performing a
handover ranging without ranging code collisions”
(emphasis added)). In addition, Song discloses that
“[f]or example, if the MSS#1 performs the nonhandover ranging with the initial ranging code C2
1011, and the MSS#2 performs the handover ranging
with a handover ranging code CK+2 1021, the ranging
code collision does not occur.” Id. ¶ 118 (emphasis
added).
Based on the evidence in this entire trial record,
we credit the testimony of Dr. Akl (Ex. 1015 ¶ 37)
over that of Dr. Lomp (Ex. 2006 ¶ 85). See Yorkey v.
Diab, 601 F.3d 1279, 1284 (Fed. Cir. 2010) (holding
that Board has discretion to give more weight to one
item of evidence over another “unless no reasonable
trier of fact could have done so”). We find that Dr.
Akl’s explanations are consistent with Song’s
disclosure. See, e.g., Ex. 1005 ¶¶ 103, 114, 115, 118,
Fig. 10.
Accordingly, we do not find Patent Owner’s
argument that “Song does not reduce the probability
of collision on a random access channel during

42a
handover” undermines Petitioner’s showing. In light
of the foregoing, we determine that Petitioner has
demonstrated sufficiently that Song teaches a “noncontention reserved access identifier,” as recited in
the challenged claims.
Transmitting an identifier over a second random
access channel
Claim 1 recites “transmitting the non-contention
reserved access identifier to the target base station
over a second random access channel in the coverage
area of the target base station.” Ex. 1001, 21:18−20
(emphasis added). Each of claims 12, 16, and 27 also
recites a similar limitation. Id. at 22:12−14,
22:39−42, 24:9−11.
Petitioner asserts that Song in combination with
WiMAX alone renders claims 1 and 12 obvious, and
that Song in combination with WiMAX and
Cleveland renders claims 16 and 27 obvious. Pet.
32−35, 51, 52, 69−71, 80−82. As support, Petitioner
explains that the mobile station, in Song, transmits a
selected handover ranging code to the target base
station. Id.; Ex. 1005 ¶ 123 (describing that “MSS
1150 . . . transmits the selected handover ranging
code to the base station”). Petitioner takes the
position that the selected handover ranging code in
Song is a “non-contention reserved access identifier.”
Pet. 32. According to Petitioner, an ordinarily skilled
artisan would have understood that Song teaches
transmitting the handover ranging code “in the
coverage area of the target base station” because
Figure 6 of Song (reproduced above) depicts
transmission between mobile subscriber station 630
and target base station 640 within coverage area 650
of target base station 640. Id. at 32−33 (citing Ex.

43a
1005, Fig. 6). Petitioner also explains that Song’s
selected handover ranging code is transmitted “over a
second random access channel” because Song
describes that the mobile station “randomly selects a
handover ranging slot from the handover ranging
slots used for the handover ranging, and transmits
the selected handover ranging code to the base
station 1100 through the selected handover ranging
slot.” Pet. 33−35 (citing Ex. 1005 ¶ 123).
Patent Owner counters that Petitioner offers no
evidence that the handover ranging code, in Song, is
transmitted to a different base station over a
different random access channel than that used for
the initial ranging codes. PO Resp. 26−31. According
to Patent Owner, “nothing in Figure 6 (or anywhere
else in Song) teaches or suggests which base stations,
610 and/or 640, transmit the initial ranging codes
and handover ranging codes,” and “nothing in
Figures 7 and 11 (or anywhere else in Song) teaches
which, if any, of base stations 700 and 1100 are
target base stations.” Id. (citing Ex. 2006 ¶¶ 87, 89).
Upon consideration of the evidence in this entire
trial record, we are persuaded by Petitioner’s
showing, and we do not find Patent Owner’s
argument undermines Petitioner’s showing. As
Petitioner explains, Song teaches transmitting an
initial ranging code over a first random access
channel of serving base station 700, shown in Figure
7 of Song (reproduced above), and transmitting a
handover ranging code over a second random access
channel of target base station 1100, shown in Figure
11 of Song (reproduced above). Pet. 23−25, 32−35; Ex.
1005 ¶¶ 83, 119, Figs. 7, 11.

44a
Patent Owner does not dispute that Song
teaches or suggests transmitting an initial ranging
code over a first random access channel of a serving
base station 700. See generally PO Response. Indeed,
Dr. Lomp admits that Song suggests that base
station 700 (shown in Figure 7 of Song) is an initial
serving base station, the base station to which the
mobile station attaches during initial power-up. Ex.
2006 ¶ 90. In addition, during cross examination, Dr.
Lomp also concedes that base station 1100 (shown in
Figure 11 of Song) is a target base station and that
mobile subscriber station 1150 in step 1117 is
sending a range code for handover to target base
station 1100. Ex. 1016, 139:22−141:2; Ex. 1005 ¶¶
119−123, Fig. 11.
In light of the foregoing, we determine that
Petitioner has established sufficiently that Song, in
combination with WiMAX, and in combination with
WiMAX and Cleveland, teaches or suggests
“transmitting the non-contention reserved access
identifier to the target base station over a second
random access channel,” as recited in claims 1, 12, 16
and 27.
Receiving an indication of a non-contention reserved
access identifier
Claim 12 recites
receiving a message providing the mobile
station with an indication of a noncontention reserved access identifier
available for use by the mobile station, the
non-contention reserved access identifier
belonging to a set of access identifiers

45a
reserved for non-contention access to target
base station.
Ex. 1001, 22:2−8 (emphases added) (the “indication”
limitation). Claims 16 and 27 recite similar
limitations. Id. at 22:34−38, 23:26−24:4
Petitioner asserts that Song, in combination
with WiMAX, renders the “indication” limitation
recited in claim 12 obvious, and that Song, in
combination with WiMAX and Cleveland, renders the
“indication” limitations recited in claims 16 and 27
obvious. Pet. 46−48, 68−69, 76−79. Petitioner relies
upon its analysis for claim 1 that shows Song teaches
the limitation “obtaining . . . an indication of a noncontention reserved access identifier identifying the
mobile station in a coverage area of the target base
station,” which we discussed above. Id. at 20−32.
Petitioner explains that Song’s UCD and UL-MAP
messages received by the mobile station from the
target base station during handover provides an
indication of ranging codes usable for handover
ranging. Id.; Ex. 1003 ¶¶ 86−88; Ex. 1005 ¶¶ 114,
115, 119, 121, 122, Figs. 10, 11. We agree with
Petitioner.
Patent Owner argues that the aforementioned
“indication” claim limitation requires an indication of
“a particular identifier for the mobile station at the
time of receipt.” PO Resp. 31−32. According to Patent
Owner, receiving a common set of handover ranging
codes for every mobile station in a coverage area does
not indicate a specific non-contention reserved access
identifier to be used by the mobile station. Id.
Upon consideration of the evidence in this entire
trial record, we are persuaded by Petitioner’s

46a
showing, and we do not find Patent Owner’s
argument undermines that showing.
Patent Owner once again attempts to import
improperly a limitation from a preferred embodiment
into the claims. Nothing in the claim language
excludes receiving a set of identifiers, or requires an
indication of a specific identifier. As Dr. Akl explains,
one ordinary skill in the art reading the claim
language would have understood that it does not
require the identifier to be received individually
because the identifier could be part of a set of
identifiers. Ex. 1015 ¶ 46. In fact, the “indication”
limitation, as recited in claims 12 and 27, requires
the claimed identifier to belong to a set of identifiers.
Ex. 1001, 22:5−8, 24:2−4.
As discussed above, Patent Owner admits that
the claim language “does not impose a requirement
that the identifier or code be ‘unique’ to the mobile
station.” Ex. 2003, 26. Patent Owner also concedes
that such a “uniqueness” requirement would exclude
a preferred embodiment disclosed in the
Specification, and that “[t]he specification states that
‘each subscriber station can potentially be assigned a
distinct set of codes, leaving room for a ‘potential’
embodiment where the codes are not distinct or
unique.” Id. at 27 (quoting Ex. 1001, 3:3−5)
(emphasis added by Patent Owner). Significantly, the
’320 patent makes clear that, in a preferred
embodiment, the subscriber station randomly selects
a pre-allocated code from a set of codes. Ex. 1001,
14:44−52.
Similar to the ’320 patent, Song reserves a set of
ranging codes for handover. Ex. 1005 ¶¶ 114, 115,
Fig. 10. Petitioner explains that Song describes a

47a
“handover ranging procedure in the IEEE 802.16e
system” in which “a mobile subscriber station (MSS)
that is serviced by a serving base station is handed
over to a target base station.” Pet. 27; Ex. 1005 ¶¶ 83,
119. In handover ranging, Song’s “base station 1100
transmits an Uplink Channel Descript (UCD)
message to the MSS . . . the UCD message includes
information of ranging codes.” Ex. 1005 ¶ 121. And,
“base station 1100 then transmits a UL-MAP
message to the MSS.” Id. “Upon receiving the ULMAP message from the base station 100, the MSS
1150 can recognize handover ranging codes used for a
handover ranging.” Id. ¶¶ 121, 122. As Petitioner
explains, Song’s UCD and UL-MAP messages
obtained by the mobile station from the target base
station during handover provides an indication of
ranging codes usable for handover ranging. Pet. 29;
Ex. 1003 ¶¶ 86−88.
Therefore, Patent Owner’s argument that Song
does not teach or suggest receiving an indication of a
non-contention reserved access identifier is
unavailing. Based on the evidence in this entire trial
record, we determine that Petitioner has established
sufficiently that Song, in combination with other
asserted prior art references, teaches the
aforementioned “indication” limitations, as recited in
claims 12, 16, and 27.
Other limitations
Petitioner provides detailed explanations for
other limitations recited in claims 1, 12, 16, and 27,
citing to Dr. Akl’s testimony for support. Pet. 15−19,
35−38, 48−53, 71−74, 82, 83; Ex. 1003 ¶¶ 52−63,
104−109, 154−175, 219−230, 263−274. Patent Owner
does not proffer separate, specific arguments as to

48a
Petitioner’s contentions regarding those limitations.
See generally PO Resp.
We have considered Petitioner’s contentions and
supporting evidence, and agree with Petitioner’s
explanations and Dr. Akl’s unrebutted testimony
regarding those limitations. We adopt Dr. Akl’s
analysis as our own.
For instance, claim 1 recites “receiving, from the
target base station, a feedback message comprising a
timing adjustment,” and each of claims 12, 16, and 27
recites a similar limitation. See, e.g., Ex. 1001,
21:21−22 (emphasis added). Claim 1 recites
“adjustment at least one operating parameter of a
transmission from the mobile station to the target
base station based at least in part on the feedback
message.” Id. at 21:23−25. Claim 16 recites a similar
limitation. Id. at 22:43−45. Claim 12 recites
“adjusting uplink transmission timing of the mobile
station using the timing adjustment.” Id. at
22:17−18. Claim 27 recites a similar limitation. Id. at
24:15−17.
For these “timing adjustment” limitations,
Petitioner explains that Song’s RNG-RSP message
teaches a feedback message comprising a timing
adjustment because Song discloses that target “base
station 1100 transmits, to the MSS 1150, a ranging
response (RNG-RSP) message” and “upon receiving
the RNG-RSP message [from target base station
1100], the MSS 1150 adjusts the time and the
frequency offsets . . . using the information included
in the RNG-RSP message.” Pet. 15−19, 35−38, 52, 53,
71−74, 82, 83 (quoting Ex. 1005 ¶ 125) (emphases
added). WiMAX also explicitly teaches that the RNG-

49a
RSP message includes a timing adjustment. Ex.
1008, 665, Table 367.
Dr. Akl testifies that a person of ordinary skill
in the art would have understood that it was common
practice for the RNG-RSP message to include a
timing adjustment. Ex. 1003 ¶¶ 107−108. Dr. Akl
also testifies that such an artisan would have been
motivated to include a timing adjustment, as taught
by WiMAX, in Song’s RNG-RSP message because it
would allow for Song’s method and devices to comply
with the 802.16 standard to provide the benefits of
enabling rapid worldwide deployment of innovative,
cost-effective, and interoperable products and
systems to accelerate commercialization. Id. ¶¶
59−61; Ex. 1008, 1. We credit Dr. Akl’s testimony (Ex.
1003 ¶¶ 59−61, 107−108) as it is consistent with the
prior art of record. See, e.g., Ex. 1005 ¶ 125; Ex. 1008,
1, 665.
Based on the evidence in this entire trial record,
we determine that Petitioner has established that
Song, in combination with other asserted prior art
references, teaches the aforementioned “timing
adjustment” limitations recited in claims 1, 12, 16,
and 27.
Claim 12 recites “receiving information about a
shared random access channel available in the
coverage area of the target base station.” Ex. 1001,
22:9−11. Claim 27 recites a similar limitation. Id. at
24:6−8.
For this “shared random access channel”
limitation, Petitioner explains that Figure 2 of Song
(reproduced above) shows each OFDMA frame having
a random access ranging channel and a number of

50a
ranging slots. Pet. 48−51 (citing Ex. 1003 ¶ 156, Fig.
2). Song also discloses that upon receiving UCD and
UL-MAP messages from the target base station,
“MSS 1150 can recognize . . . a handover ranging
channel.” Ex. 1005 ¶¶ 121, 122. Song further
discloses that the mobile station selects a handover
ranging code and a handover ranging slot, and
transmits the selected code to the target base station
through the selected slot. Ex. 1005 ¶ 123. Dr. Akl
testifies that a person of ordinary skill in the art
would have understood that Song’s handover ranging
channel is a “shared random access channel” because
mobile stations may randomly access the handover
ranging channel in the coverage area of the target
base station for handover ranging. Ex. 1003 ¶ 158.
Based on the evidence in this entire trial record,
we determine that Petitioner has established that
Song, in combination with other asserted prior art
references, teaches the aforementioned “shared
random access channel” limitation, as recited in
claims 12 and 27.
For the foregoing reasons, we determine that
Petitioner has demonstrated by a preponderance of
the evidence that claims 1 and 12 are unpatentable
under § 103(a) as obvious over Song in combination
with WiMAX, and that claims 16 and 27 are
unpatentable under § 103(a) as obvious over Song, in
combination with WiMAX and Cleveland.
Dependent claims 8 and 17 – releasing identifier
Claim 8 depends from claim 1 and further
recites “releasing the non-contention reserved access
identifier subsequent to adjusting the at least one
operating parameter of a transmission from the

51a
mobile station to the target base station” (the
“releasing” limitation). Ex. 1001, 21:51−55. Claim 17
depends from claim 16 and further recites a similar
limitation. Id. at 22:50−54.
Petitioner asserts that Song, in combination
with other asserted prior art references, teaches this
“releasing” limitation. Pet. 41−43, 74−75. Specifically,
Song teaches that a subscriber station that has
adjusted its time offset and transmit power through
initial ranging subsequently performs periodic
ranging, using periodic ranging codes, instead of the
handover ranging codes. Id. at 41 (citing Ex. 1005 ¶
36). Dr. Akl testifies that a person of ordinary skill in
the art would have understood that periodic ranging
would occur after Song’s handover ranging because
handover ranging is a form of an initial ranging with
the target base station. Ex. 1003 ¶ 128 (citing Ex.
1005 ¶¶ 77, 107 (noting that “the MSS performs the
initial ranging according to the handover (handover
ranging)”)). Dr. Akl also testifies that “the handover
ranging code (the ‘non-contention reserved access
identifier’) initially used by the mobile station to
connect to the target base station is not used for
periodic ranging.” Id. ¶ 129. Dr. Akl further testifies
that “[w]hen the mobile station transitions to periodic
ranging, after adjusting its time offset and transmit
power through handover ranging, the mobile station
will no longer use the handover ranging code.” Id. Dr.
Akl explains that “[a]s a result, the handover ranging
code initially used by the mobile station to connect to
the target base station is released by the mobile
station and available for other mobile stations to use
for handover ranging.” Id. (emphasis added).

52a
Based on the evidence before us, we are
persuaded by Petitioner’s explanation and supporting
evidence that Song suggests the aforementioned
“releasing” limitation.
Patent Owner counters that Song does not
disclose releasing the identifier. PO Resp. 32−35.
Patent Owner argues that “[b]ecause Song’s mobile
stations can simultaneously be assigned multiple
types of ranging code . . . , it does not follow that the
mobile station must necessarily ‘release’ its handover
ranging code once it begins using its periodic ranging
code.” Id. at 34. As support, Dr. Lomp testifies that
Song “never mentions any ‘release.’” Ex. 2006 ¶¶
92−96.
However, an obviousness analysis is not an
ipsissimis verbis test. Cf. In re Gleave, 560 F.3d 1331,
1334 (Fed. Cir. 2009) (noting that, in an anticipation
analysis, “the reference need not satisfy an ipsissimis
verbis test”). Rather, the test for obviousness is
whether the combination of references, taken as a
whole, would have suggested the patentees’ invention
to a person having ordinary skill in the art. In re
Merck & Co., 800 F.2d 1091, 1097 (Fed. Cir. 1986).
Moreover, prior art references must be “considered
together with the knowledge of one of ordinary skill
in the pertinent art.” In re Paulsen, 30 F.3d 1475,
1480 (Fed. Cir. 1994).
Neither Patent Owner nor Dr. Lomp challenges
Dr. Akl’s testimony that a person of ordinary skill in
the art would have recognized that: (1) Song’s
periodic ranging occurs after the handover ranging;
(2) Song’s handover ranging is a form of an initial
ranging with the target base station; and (3) when
the mobile station transitions to period ranging, after

53a
adjusting its time offset and transmit power through
handover ranging, the mobile station will no longer
use the handover ranging code. PO Resp. 32−35; Ex.
2006 ¶¶ 92−96. We credit Dr. Akl’s unrebutted
testimony (Ex. 1003 ¶¶ 128, 129), as it is consistent
with Song (Ex. 1005 ¶¶ 36, 77, 107).
More importantly, as discussed above, Song’s
handover ranging codes are CDMA codes. Ex. 1005
¶¶ 111, 115, 119−122, Fig. 11. During cross
examination, Dr. Lomp testifies that all CDMA codes
used to identify a mobile device are released at some
point in time because “all of them are released back
into the pool after they’re no longer needed.” Ex.
1016, 82:7−16. In particular, Dr. Lomp’s crossexamination testimony includes the following
discussion (id., emphases added):
Q. . . . . Are all CDMA codes that are used to
identify a mobile device released at some
point in time?
[Dr. Lomp’s answer:] I would say, generally,
yes, the resources associated with a call for - that are specifically allocated to a device
are - - are released, like time slots,
frequencies, or codes, they’re - - all of them
are released back into the pool after they’re
no longer needed.
Furthermore, Dr. Akl agrees with Dr. Lomp and
confirms that a person of ordinary skill in the art
would have understood that “a CDMA code used to
identify a mobile station will be released at some
point in time, including when the CDMA code is no
longer needed,” such as when the mobile station

54a
transitions from handover ranging to a period
ranging. Ex. 1015 ¶¶ 52−54.
Accordingly, Patent Owner’s argument that
Song does not teach or suggest the “releasing”
limitation is unavailing. In view of the foregoing, we
determine that Petitioner has established sufficiently
that Song, in combination with other asserted prior
art references, teaches or suggests “releasing the
non-contention reserved access identifier,” as recited
in claims 8 and 17, and renders claims 8 and 17
obvious.
Dependent claims 15 and 30 - uniquely identifies the
mobile station
Dependent claim 15 depends from claim 12, and
further recites “the non-contention reserved access
identifier uniquely identifies the mobile station in the
coverage area of the target base station.” Ex. 1001,
22:25−27 (emphasis added). Claim 30 depends from
claim 27, and further recites the same limitation. Id.
at 24:24−26.
Petitioner asserts that Song, in combination
with WiMAX, renders claim 15 obvious, and that
Song, in combination with WiMAX and Cleveland,
renders claim 30 obvious. Pet. 53, 54, 83. Petitioner
explains that Song teaches that a handover ranging
code (“non-contention reserved access identifier”)
uniquely identifies a mobile station because a person
of ordinary skill in the art would have recognized
that, for the target base station to transmit back to
the intended mobile station, the mobile station must
be uniquely identified by the target base station. Id.
We agree with Petitioner.

55a
Patent Owner counters that, because it is
potentially possible that two mobile stations in Song
can randomly select the same handover ranging code,
the handover ranging code would not uniquely
identify either mobile station in such a situation. PO
Resp. 35−37. Patent Owner also argues “that a base
station can differentiate between two mobile stations
does not uniquely identify either mobile station.” Id.
at 37.
Patent Owner’s argument is unavailing as it
ignores the express disclosure of Song. Notably, Song
recognizes the problem that “[w]hen the ranging
codes collide with each other, the base station cannot
identify the collided ranging codes, and thus cannot
transmit the RNG-RSP message.” Ex. 1005 ¶¶ 56,
116. To solve this known problem, Song consistently
and repeatedly discloses “a handover ranging system
and a method for preventing a ranging code collision.”
See, e.g., id. ¶ 102 (emphasis added); see also id. ¶¶
103 (noting that “the present invention proposes a
handover ranging code and a handover ranging slot
for performing a handover ranging without ranging
code collisions”), 108 (noting that “the ranging code
collision between the handover ranging and the
conventional initial ranging of the initial access (nonhandover ranging) is prevented, so a fast handover is
performed”), 114 (noting that “[b]y allocating ranging
codes for the handover ranging (i.e., ‘handover
ranging codes’), the ranging code collision between
the handover ranging and non-handover ranging is
prevented”), 115 (noting that “[t]he ranging code
collision between the handover ranging and nonhandover ranging is prevented”), 118 (providing an
example in which two mobile stations have different

56a
ranging codes and the ranging code collision does not
occur), 122 (noting that “the probability of ranging
code collision is decreased”), 128 (noting that “there is
no handover ranging code collision, and the MSS can
perform a fast handover”).
As Petitioner explains, Song teaches that a
handover ranging code (“non-contention reserved
access identifier”) uniquely identifies a mobile station
when the handover ranging code is successfully
received by the target base station, sending back a
ranging response (RNG-RSP) message. Pet. 53, 54.
As noted above, Song discloses that “[u]pon receiving
a random handover ranging code through a random
handover ranging slot from the MSS 1150, the base
station 1100 transmits, to the MSS 1150, a ranging
response (RNG-RSP) message including information
indicating the successful receipt of the handover
ranging code, for example an OFDMA symbol
number, a subchannel, and a ranging code, in Step
1121.” Ex. 1005 ¶ 125, Fig. 11 (emphasis added). If
MSS 1150 does not receive a response from base
station 1100 (e.g., in the situation where two mobile
stations randomly select the same handover ranging
code), MSS 1150 again randomly selects a handover
ranging code and transmits the selected handover
ranging code to base station 1100. Id. ¶ 124, Fig. 11,
Step 1119.
Furthermore, Dr. Akl testifies that a person of
ordinary skill in the art would have recognized that,
“for the target base station to transmit back to the
intended mobile station, the mobile station must be
uniquely identified by the target base station.” Ex.
1003 ¶¶ 176−178 (citing Ex. 1005 ¶¶ 56, 116, 125; Ex.
1011 ¶¶ 59−61). Dr. Akl also testifies that such an

57a
artisan would have recognized that the base station
can differentiate between the two mobile stations
that have different ranging codes, because the mobile
stations are uniquely identified by the particular
ranging code. Id. Dr. Akl further explains that “when
the handover ranging code is successfully received by
the target base station, no other mobile stations are
using the same handover ranging code,” and
“[b]ecause the handover ranging code is used by only
one mobile station, the handover ranging code
uniquely identifies the mobile station.” Ex. 1015 ¶ 58.
Consistent with Dr. Akl’s testimony, Dr. Lomp
admits that if “two of Song’s mobile stations
coincidentally randomly selected different handover
ranging codes and transmitted them to the base
station,” the “base station could then differentiate
between those two mobile stations using the different
handover ranging codes.” Ex. 2006 ¶ 109. We credit
Dr. Akl’s testimony (Ex. 1003 ¶¶ 176−178; Ex. 1015 ¶
58) as it is consistent with the prior art of record. See,
e.g., Ex. 1005 ¶¶ 56, 116, 125, Fig. 11; Ex. 1011 ¶¶
59−61. Therefore, Song teaches “the non-contention
reserved access identifier uniquely identifies the
mobile station in the coverage area of the target base
station,” as recited in claims 15 and 30. Accordingly,
Patent Owner’s argument that Song’s handover
ranging code would not uniquely identify the mobile
station is unavailing.
Based on the evidence in this entire trial record,
we determine that Petitioner has established
sufficiently that Song, in combination with other
asserted prior art references, renders claims 15 and
30 obvious.

58a
Claims 3, 4, 9, 10, 20, 21, and 25
Petitioner provides detailed explanations for
claims 3, 4, 9, 10, 20, 21, and 25, citing to Dr. Akl’s
testimony for support. Pet. 38−41, 43−45, 75, 76; Ex.
1003 ¶¶ 116−125, 131−140, 239−241. Patent Owner
does not proffer separate, specific arguments as to
Petitioner’s contentions regarding those claims. See
generally PO Resp.
We have considered Petitioner’s contentions and
supporting evidence, and agree with Petitioner’s
explanations and Dr. Akl’s unrebutted testimony
regarding those limitations. We adopt Dr. Akl’s
analysis as our own.
For instance, claim 3 recites “wherein the noncontention reserved access identifier is from a second
reserved set of access identifiers usable over the
second random access channel in the coverage area of
the target base station.” Ex. 1001, 21:29−32. Claim
20 recites a similar limitation. Id. at 22:61−64. Claim
4 recites “wherein the first reserved set of access
identifiers is different from the second reserved set of
access identifiers.” Id. at 21:33−35. Claim 21 recites a
similar limitation. Id. at 22:65−67.
For these “second reserved set of access
identifiers” limitations, Petitioner relies upon its
analysis for claim 1 regarding “non-contention
reserved access identifiers” and transmitting the
identifier over a second random access channel,
which we discussed above. Pet. 38−41. In addition,
Petitioner explains that Song reserves some ranging
codes for initial ranging (a first reserved set of access
identifier) and some other ranging codes for handover
ranging (a second reserved set of access identifiers)

59a
that are different from initial ranging codes. Id.
(citing Ex. 1005 ¶ 115, Fig. 10 (reproduced above)).
The UCD and UL-MAP messages from the target
base station are an indication of handover ranging
codes. Id. (citing Ex. 1005 ¶¶ 121, 122). Petitioner
further explains that, upon receiving the messages,
Song’s mobile station selects a handover ranging code
and transmits it over a second random access
channel in the coverage area of the target base
station. Id.; Ex. 1005 ¶¶ 122, 123.
Based on the evidence in this entire trial record,
we determine that Petitioner has established that
Song, in combination with other asserted prior art
references, teaches the aforementioned “second
reserved set of access identifiers” limitations recited
in claims 3, 4, 20, and 21, and renders these claims
obvious.
Claims 9 and 25 each recite “adjusting at least
one operating parameter of a transmission from the
mobile station to the target base station results in
synchronizing the mobile station to the target base
station.” Ex. 1001, 21:56−59, 23:16−19 (emphasis
added).
For this “synchronizing” limitation, Petitioner
relies upon its analysis for the “timing adjustment”
limitation of claim 1, which we discussed above. Pet.
43. Specifically, Petitioner notes that Song discloses
that target “base station 1100 transmits, to the MSS
1150, a ranging response (RNG-RSP) message” and
“upon receiving the RNG-RSP message [from target
base station 1100], the MSS 1150 adjusts the time
and the frequency offsets . . . using the information
included in the RNG-RSP message.” Ex. 1005 ¶ 125
(emphases added). Song also teaches that “initial

60a
ranging is performed to synchronize the base station
with the SS [subscriber station], during which a time
offset . . . between the SS and the base station are
precisely adjusted.” Ex. 1005 ¶ 33 (emphasis added).
Dr. Akl testifies that an ordinarily skilled
artisan would have understood that adjusting the
time offset as described in Song synchronizes the
uplink transmissions from the mobile station to the
target base station. Ex. 1003 ¶¶ 133, 134; Ex. 1008,
665. Dr. Akl also testifies that ranging with the
target base station would result in synchronizing the
mobile station to the target base station. Ex. 1003 ¶
135.
Based on the evidence in this entire trial record,
we determine that Petitioner has established that
Song, in combination with other asserted prior art
references, teaches the aforementioned
“synchronizing” limitation recited in claims 9 and 25,
and renders these claims obvious.
Claim 10 recites “transmitting a bandwidth
request message to the target base station subsequent
to adjusting the at least one operating parameter of a
transmission from the mobile station to the target
base station.” Ex. 1001, 21:60−64 (emphasis added).
For this “bandwidth” limitation, Petitioner relies
upon its analysis for the “timing adjustment”
limitation of claim 1, which we discussed above. Pet.
44. Specifically, Petitioner notes that Song discloses
that target “base station 1100 transmits, to the MSS
1150, a ranging response (RNG-RSP) message” and
“upon receiving the RNG-RSP message [from target
base station 1100], the MSS 1150 adjusts the time
and the frequency offsets . . . using the information
included in the RNG-RSP message.” Ex. 1005 ¶ 125

61a
(emphases added). Petitioner further explains that
Song discloses “transmitting a bandwidth request
message to the target base station” because Song
discloses that “bandwidth request ranging is
performed by the SS having the time offset and the
transmit power adjusted through the initial ranging,
wherein the SS requests a bandwidth assignment in
order to communicate with the base station.” Pet. 44,
45 (quoting Ex. 1005 ¶ 37).
Dr. Akl testifies that handover ranging with the
target base station is an initial ranging with the
target base station. Ex. 1003 ¶¶ 139, 140. Dr. Akl
also testifies that because Song performs the
bandwidth request ranging after handover ranging,
an ordinarily skilled artisan would have recognized
that Song’s bandwidth request ranging is performed
“subsequent to adjusting the at least one operating
parameter of a transmission from the mobile station
to the target base station.” Id.
Based on the evidence in this entire trial record,
we determine that Petitioner has established that
Song, in combination WiMAX, teaches the
aforementioned “bandwidth” limitation recited in
claim 10.
For the foregoing reasons, we determine that
Petitioner has demonstrated by a preponderance of
the evidence that claims 3, 4, 9, and 10 are
unpatentable as obvious over the combination of Song
and WiMAX, and that claims 20, 21, and 25 are
unpatentable as obvious over the combination of the
combination of Song, WiMAX, and Cleveland.

62a
III. CONCLUSION
For the foregoing reasons, we determine that
Petitioner has established by a preponderance of the
evidence that claims 1, 3, 4, 8−10, 12, and 15 are
unpatentable under 35 U.S.C. § 103(a) as obvious
over the combination of Song and WiMAX, and that
claims 16, 17, 20, 21, 25, 27, and 30 are unpatentable
under 35 U.S.C. § 103(a) as obvious over the
combination of Song, WiMAX, and Cleveland.
IV. ORDER
Accordingly, it is
ORDERED that claims 1, 3, 4, 8−10, 12, 15−17,
20, 21, 25, 27, and 30 of the ’320 patent are held
unpatentable; and
FURTHER ORDERED that, because this is a
Final Written Decision, parties to the proceeding
seeking judicial review of the decision must comply
with the notice and service requirements of 37 C.F.R.
§ 90.2.
For PETITIONER:
David McCombs
Gregory Huh
Gregory Webb
HAYNES AND BOONE, LLP
david.mccombs.ipr@hayesboone.com
gregor.huh.ipr@haynesboone.com
greg.webb.ipr@haynesboone.com
For PATENT OWNER:
Douglas Wilson
J. Boone Baxter

63a
HEIM, PAYNE & CHORUSH, LLP
dwilson@hpcllp.com
bbaxter@hpcllp.com

64a
APPENDIX C
RELEVANT CONSTITUTIONAL
AND STATUTORY PROVISIONS
1. Title 5 of the United States Code provides in
relevant part as follows:
§ 7513. Cause and procedure
(a) Under regulations prescribed by the Office of
Personnel Management, an agency may take an action
covered by this subchapter against an employee only
for such cause as will promote the efficiency of the
service.
(b) An employee against whom an action is
proposed is entitled to—
(1) at least 30 days’ advance written notice,
unless there is reasonable cause to believe the
employee has committed a crime for which a
sentence of imprisonment may be imposed,
stating the specific reasons for the proposed
action;
(2) a reasonable time, but not less than 7
days, to answer orally and in writing and to
furnish affidavits and other documentary
evidence in support of the answer;
(3) be represented by an attorney or other
representative; and
(4) a written decision and the specific
reasons therefor at the earliest practicable date.
(c) An agency may provide, by regulation, for a
hearing which may be in lieu of or in addition to the
opportunity to answer provided under subsection
(b)(2) of this section.

65a
(d) An employee against whom an action is taken
under this section is entitled to appeal to the Merit
Systems Protection Board under section 7701 of this
title.
(e) Copies of the notice of proposed action, the
answer of the employee when written, a summary
thereof when made orally, the notice of decision and
reasons therefor, and any order effecting an action
covered by this subchapter, together with any
supporting material, shall be maintained by the
agency and shall be furnished to the Board upon its
request and to the employee affected upon the
employee's request.

66a
2. Title 28 of the United States Code provides
in relevant part as follows:
§ 1254. Courts of appeals; certiorari; certified
questions
Cases in the courts of appeals may be reviewed by the
Supreme Court by the following methods:
(1) By writ of certiorari granted upon the petition
of any party to any civil or criminal case, before or
after rendition of judgment or decree;
(2) By certification at any time by a court of
appeals of any question of law in any civil or criminal
case as to which instructions are desired, and upon
such certification the Supreme Court may give binding
instructions or require the entire record to be sent up
for decision of the entire matter in controversy.

67a
3. Title 35 of the United States Code provides
in relevant part as follows:
§ 141. Appeal to Court of Appeals for the
Federal Circuit
(a) Examinations.—An
applicant
who
is
dissatisfied with the final decision in an appeal to the
Patent Trial and Appeal Board under section 134(a)
may appeal the Board's decision to the United States
Court of Appeals for the Federal Circuit. By filing such
an appeal, the applicant waives his or her right to
proceed under section 145.
(b) Reexaminations.—A patent owner who is
dissatisfied with the final decision in an appeal of a
reexamination to the Patent Trial and Appeal Board
under section 134(b) may appeal the Board's decision
only to the United States Court of Appeals for the
Federal Circuit.
(c) Post-Grant and Inter Partes Reviews.—A
party to an inter partes review or a post-grant review
who is dissatisfied with the final written decision of
the Patent Trial and Appeal Board under section
318(a) or 328(a) (as the case may be) may appeal the
Board's decision only to the United States Court of
Appeals for the Federal Circuit.
(d) Derivation Proceedings.—A party to a
derivation proceeding who is dissatisfied with the final
decision of the Patent Trial and Appeal Board in the
proceeding may appeal the decision to the United
States Court of Appeals for the Federal Circuit, but
such appeal shall be dismissed if any adverse party to
such derivation proceeding, within 20 days after the
appellant has filed notice of appeal in accordance with

68a
section 142, files notice with the Director that the
party elects to have all further proceedings conducted
as provided in section 146. If the appellant does not,
within 30 days after the filing of such notice by the
adverse party, file a civil action under section 146, the
Board's decision shall govern the further proceedings
in the case.
§ 311. Inter partes review
(a) In General.—Subject to the provisions of this
chapter, a person who is not the owner of a patent may
file with the Office a petition to institute an inter
partes review of the patent. The Director shall
establish, by regulation, fees to be paid by the person
requesting the review, in such amounts as the Director
determines to be reasonable, considering the
aggregate costs of the review.
(b) Scope.—A petitioner in an inter partes review
may request to cancel as unpatentable 1 or more
claims of a patent only on a ground that could be raised
under section 102 or 103 and only on the basis of prior
art consisting of patents or printed publications.
(c) Filing Deadline.—A petition for inter partes
review shall be filed after the later of either—
(1) the date that is 9 months after the grant
of a patent; or
(2) if a post-grant review is instituted under
chapter 32, the date of the termination of such
post-grant review.
§ 319. Appeal
A party dissatisfied with the final written
decision of the Patent Trial and Appeal Board under
section 318(a) may appeal the decision pursuant to

69a
sections 141 through 144. Any party to the inter partes
review shall have the right to be a party to the appeal.

